<html>
<title> - THE DRUG THREAT TO TEENS IN OUR RURAL COMMUNITIES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


 
           THE DRUG THREAT TO TEENS IN OUR RURAL COMMUNITIES
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 1997

                               __________

                           Serial No. 105-74

                               __________

Printed for the use of the Committee on Government Reform and Oversight





                        U.S. GOVERNMENT PRINTING OFFICE
46-269                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
              Sean Littlefield, Professional Staff Member














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 7, 1997.....................................     1
Statement of:
    Maakestad, Pam, parent of a victim of drug-related violence; 
      ``Jerome,'' former organized drug dealer; ``Derrick,'' 
      former drug user and gang member; ``Connie,'' a teenager 
      who has never used drugs; Michael Coghlan, former States 
      attorney; and Kris Povlsen, project coordinator, DeKalb 
      County Partnership for a Substance Abuse Free Environment..     4
    Nakonechny, John, prevention and wellness coordinator, DeKalb 
      Community Unit School District 428; Michael Haines, 
      coordinator of health enhancement services, Northern 
      Illinois University; Tim Johnson, DeKalb States attorney; 
      Richard A. Randall, sheriff, Kendall County, IL; and Bob 
      Miller, just say no to drugs parade, Lee County, IL........    47
Letters, statements, etc., submitted for the record by:
    Coghlan, Michael, former States attorney, prepared statement 
      of.........................................................    10
    Connie, prepared statement of................................    12
    Derrick, prepared statement of...............................    38
    Haines, Michael, coordinator of health enhancement services, 
      Northern Illinois University, prepared statement of........    54
    Jerome, prepared statement of................................    26
    Johnson, Tim, DeKalb States attorney, prepared statement of..    67
    Maakestad, Pam, parent of a victim of drug-related violence, 
      prepared statement of......................................     6
    Povlsen, Kris, project coordinator, DeKalb County Partnership 
      for a Substance Abuse Free Environment, prepared statement 
      of.........................................................    17
    Randall, Richard A., sheriff, Kendall County, IL, prepared 
      statement of...............................................    71
















           THE DRUG THREAT TO TEENS IN OUR RURAL COMMUNITIES

                              ----------                              


                          MONDAY, JULY 7, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                        DeKalb, IL.
    The subcommittee met, pursuant to notice, at 8:32 a.m., in 
Holmes Student Center, Northern Illinois University, DeKalb, 
IL, Hon. J. Dennis Hastert (chairman of the subcommittee) 
presiding.
    Present: Representative Hastert.
    Also present: Representative Manzullo.
    Staff present: Robert Charles, staff director and chief 
counsel; and Sean Littlefield, professional staff member.
    Mr. Hastert. Good morning. I want to bid everybody a good 
morning and certainly, first of all, the first order of 
business, I want to thank the president of Northern Illinois 
University, John La Tourette, who is in the doorway, for 
providing this facility and this venue for our hearing. It is 
such a beautiful day and a nice view, and I hope everybody can 
concentrate on the hearing before us.
    So, John, thank you very much for your hospitality here at 
the university.
    I also would like to recognize State Senator Brad 
Bruzynski. Brad is in the audience.
    Thank you, Brad, for being here.
    Also the sheriff of DeKalb County, who certainly has been 
one of our key allies in this fight against drugs, Sheriff 
Roger Scott.
    Roger, you are here someplace too. Thanks for being with 
us.
    The Subcommittee on National Security, International 
Affairs, and Criminal Justice will now come to order. With me I 
have Congressman Don Manzullo, who represents the district to 
the north. It goes all the way from the Mississippi River to 
the Lake County side of McHenry County.
    Is that right, Don?
    And certainly it was Don's request--a couple of months ago, 
he said, you know, in my district, the gangs and drug problems 
are moving out from the city of Chicago into the suburbs and 
certainly into McHenry County; and he said, you know, I need to 
do hearings back home to see what people are thinking, see what 
needs to be done. And I said, Don, I have been thinking about 
doing the same thing.
    So we teamed up today to do this hearing both here in 
DeKalb County, and we will be traveling later this afternoon to 
McHenry County for a similar hearing. Today we will examine the 
dire threat of drugs to our kids in rural communities and in 
suburbs.
    When residents of rural areas think of drugs and teens, 
often the first thing that comes to their mind is kids in 
impoverished urban areas being victimized by crack dealers and 
gangs. The rural areas in small towns, DeKalb, Kendall, and Lee 
Counties, generally are not thought of as places where drug 
abuse is a problem.
    Unfortunately, times have changed and this image is simply 
no longer true. It is a sad fact, but a harbinger of our times 
that no young person in any community in America is out of the 
reach of cocaine, heroin, LSD or methamphetamines, let alone 
marijuana; nor is any community immune from the drug violence 
and street gangs and the trafficking which accompany the 
arrivals of these poisons in our midst.
    The citizens in DeKalb and our surrounding areas have been 
shocked in recent years as we continuously see the encroachment 
of drugs, drug-related violence and street gangs. No longer are 
we insulated from the problems that used to be confined to big 
cities, such as Chicago or Rockford. One need only read the 
recent series of the chronicled articles on drug use among our 
teens here in DeKalb and the DeKalb High School to understand 
the magnitude of the problem we are all confronting. As a 
parent certainly and a former high school teacher myself of 16 
years, I feel this problem is a devastating one and requires 
effort by all of us to reverse.
    A few examples are illustrative. The results of the I-Say 
study on drug use, published on May 18, 1997, is a case in 
point. The results are an alarming 40 percent of high school 
students polled say they have used marijuana. That is nearly 
half of the kids in our schools; 14 percent said they have used 
LSD, 6 percent report using inhalants and 5 percent have tried 
cocaine. That is 1 in every 20 kids.
    The saddest part is that these aren't just statistics, they 
are not just numbers, these are our kids right here in our 
communities. We must do a better job of educating them about 
the dangers of these drugs and their use, and protecting them 
from those who traffic in these poisons.
    And perhaps the most damning statement was made by a junior 
honor student. This student commented that while the drug users 
in school use drugs every day there are some responsible people 
who care about their future and use drugs only on a weekend 
basis. This kind of sentiment of equating responsibility in 
caring about one's future with drug use, coming from an honors 
student, paints a frightening picture of where we are as a 
society and where we are headed.
    We must wake up to our collective responsibility, meeting 
this collective threat, and become serious about fighting 
drugs. I think we will find that our panelists today, the 
people who are going to come before us, have insight; some of 
them have the experience of having their own practical 
experience in this type of situation and some have been parents 
and some have been in these communities fighting this problem 
for a long, long time. So I am going to ask my colleague from 
the northern District here, the congressional district which 
lies right over the DeKalb County line, if he would like to 
make any opening statements.
    Mr. Manzullo. Thank you very much. It is a real pleasure to 
be here this morning.
    I practiced law in Oregon, IL, a town of 3,500 people, from 
1970 until I was elected to Congress in 1992, and handled 
hundreds of juvenile cases. Many of those were kids who got 
hung up with drugs, so this area of drugs is not new to me.
    What is new about this area to me, my 13-year-old son, 
Neal, is here today, so I have a very selfish motive and wanted 
to make sure my children--13, 11, and 9--are not exposed to 
drugs, that they stay away from drugs as a matter of life-style 
and as a matter of choice.
    Dennis and I both have children, and that is why we are 
here, both as parents and as Members of Congress.
    What is shocking today about drugs is that they are 
cheaper, higher quality and easier to obtain than ever before. 
We have now a second generation of kids being exposed to drugs, 
and in some cases, three generations.
    We had a situation happen about a month ago in Rockford 
where a family moved out from the inner city of Chicago to a 
home on the west side of Rockford for the purpose of trying to 
keep their kids away from the violence and gangs and drugs. A 
little 11-year-old child was sitting in the living room 
watching a Walt Disney cartoon when a shot rang through the 
window and pierced her skull and killed her. What happened was 
that across the street there was a party going on, involving 
gangs and people that were using drugs.
    So what we see happening across America today is not only 
the people who are the direct result of drugs, that is, the 
kids who get hung up on them, but a whole army of innocents out 
there, people who just happen to be in the way of rival gangs 
fighting over drug territories. What is shocking about it is 
that there is no town too small, to be immune from this scourge 
of drugs and from the gangs.
    If you look around us, this beautiful rural setting at one 
time, who would have thought that the scourge of drugs and gang 
activities would come anywhere near us; but that has indeed 
come. Congressman Hastert recognizes that and we want to thank 
you for the leadership in setting up this hearing today.
    Mr. Hastert. Thanks, Don.
    Before we begin, let us be perfectly clear about what our 
goal is. This community and others like it that both Don and I 
represent have changed a lot in the last 20, 25 years, 35 years 
since the time that we were youths in schools here. I have a 
brother who teaches in Aurora, IL, a classroom, self-contained, 
kids at risk; the classroom is probably 70 percent Hispanic. 
Most of those kids have been exposed to some type of gang 
violence. Several of the students last year were killed, 
several in one classroom were killed.
    In my view, there is no magic formula to solve the drug 
problem. Part of it has to be the demand side, communities, 
faith-based organizations, fraternal organizations and groups 
working together to clean up their own communities; that is 
where it has to start. The Federal Government plays a role, 
State and local governments play a role; and we have to 
sometimes fight and go beyond where we can even imagine that 
this begins, and that is in the jungles in South America where 
this stuff is produced and it devastates a population and a 
group of people there as well. So it is a whole area.
    Finally, we will be remiss in fighting the war on drugs in 
saying that all the effort that is done in growing this stuff, 
manufacturing it, smuggling it, moving it across the borders 
into this country, distributing it, selling it on the street 
corners, which costs about $90 billion a year of United States 
revenue that has exchanged hands, and about $50 billion, going 
back, smuggled back into Colombia or Mexico or the origin of 
where the things are. If that money wouldn't be able to be 
moved back, then the whole issue and money laundering issue, 
there would be no reason to grow the stuff, smuggle it and 
distribute it in the first place; and that is something we many 
times overlook, and something we won't be talking about much 
here today. But it is certainly a very important factor in this 
whole chain of drugs that affect our kids and communities and 
really the substance that helps gangs form and is their revenue 
source in many situations.
    So, at this time, I would like to introduce our first 
panel. The first four witnesses will provide a human face to 
the war on drugs. Some are victims, some have been involved in 
gangs and all will provide insight into the scourge of drugs 
into rural communities.
    The four witnesses are Pam Maakestad, ``Jerome,'' 
``Derrick,'' and ``Connie.'' I would also like to welcome Mike 
Coghlan, who is the former States Attorney in DeKalb County; 
Kris Povlsen is a project coordinator for the DeKalb County 
Partnership for a Substance Abuse Free Environment; and I thank 
you for all for being here today.
    In accordance with the House rules, we will ask to swear 
you in and so I ask at this time that you please stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
answered in the affirmative.
    Pam, please start with your statement. If you can pull the 
mic up a little closer.

STATEMENTS OF PAM MAAKESTAD, PARENT OF A VICTIM OF DRUG-RELATED 
      VIOLENCE; ``JEROME,'' FORMER ORGANIZED DRUG DEALER; 
 ``DERRICK,'' FORMER DRUG USER AND GANG MEMBER; ``CONNIE,'' A 
  TEENAGER WHO HAS NEVER USED DRUGS; MICHAEL COGHLAN, FORMER 
STATES ATTORNEY; AND KRIS POVLSEN, PROJECT COORDINATOR, DeKALB 
   COUNTY PARTNERSHIP FOR A SUBSTANCE ABUSE FREE ENVIRONMENT

    Ms. Maakestad. My name is Pam Maakestad. My son Brent 
started using drugs when he was around the age of 12. He 
started off with casual use of pot, and then he used it more 
frequently. He started using other drugs, such as acid. By the 
age of 14, my son went to a 90-day inpatient rehabilitation 
program.
    Three times a week I drove to the drug rehabilitation 
center in Wacaunda, IL. I went to group counseling sessions 
with my son, Brent Cooper, and others who had become addicted 
to alcohol and marijuana at such an early age. Brent did well 
in the drug rehabilitation program. We both learned a lot. We 
learned each day would be a struggle to stay away from the 
drugs and alcohol.
    My son stayed sober for about a year; then he started to 
use drugs again. He was 15 years old, he started to use acid 
and other more dangerous drugs. Along with drug use, he got 
into trouble with the law. He also started hanging around with 
gang members because they sold drugs. He hung around with the 
dealers in the gangs so often that he joined the gang.
    Many people don't realize the connection between the causal 
use of pot and street gangs. Even in DeKalb, there is a 
connection between pot and gangs.
    By the age of 16, Brent was back in the drug rehabilitation 
program. Once again, he was a model student. He graduated from 
the inpatient program and started to attend outpatient 
counseling.
    At age 17, he was getting his life back together. He was 
trying to stay away from the drug people, but it wasn't easy. 
On August 17, 1991, Brent was shot and murdered near the 
courthouse in Sycamore. He was murdered by a group of people 
involved in drugs and gangs at the time he was murdered. Even 
though my son was not using drugs at the time he was murdered, 
it was his past drug use that brought him to the place where he 
was murdered. If it weren't for drugs and gangs, my son would 
be alive today.
    On August 17, it will be 6 years that have passed since 
Brent was murdered. I think of him every day, especially when I 
look at his son who looks so much like him. I especially 
remember 1 night a few weeks before he was murdered; he was 
having a bad reaction to a drug known as Wickie stick. He was 
shaking and trembling uncontrollably, and I remember holding 
him, rocking him back and forth, until the drugs wore off and 
he accepted that everyone in the family was all right and safe.
    Even today, I hear about local kids as young as 12 years 
old who use acid and pot. A lot of kids also use alcohol, which 
can be more destructive than illegal drugs. I came here today 
to share my story in order to help other families avoid the 
grief that drugs have brought my family.
    Drugs and alcohol education programs find it hard to 
compete with the example set at home. Many people are afraid to 
tell adults to look at their own drug and alcohol use. The 
parents need drug and alcohol abuse education too.
    Mr. Hastert. Thank you very much certainly for a moving 
statement and something that you lived through. We appreciate 
your coming here and sharing that with us.
    [The prepared statement of Ms. Maakestad follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Hastert. Next I would like to introduce Mike Coghlan, 
former States Attorney here.
    And, Mike, I think you would like to introduce one of the 
witnesses here. Mike, please go ahead.
    Mr. Coghlan. Thank you, Congressman Hastert. The witness I 
would like to introduce at this time is Connie. Also, Derrick 
and Jerome hopefully should be along shortly; we have their 
prepared statements.
    Briefly, in preparation for this hearing, I interviewed 
eight individuals between the ages of 14 and 18; and as a 
theme, one of the things I found that was very interesting, 
that you may want to keep in the back of your mind during the 
information from the younger people, is a statement that one of 
the 17-year-olds made.
    These individuals were in fact providing drugs to their 
friends, and they had been through drug rehabilitation and 
taken a fair amount of drugs themselves, and their focus was 
very interesting. Their focus was that they were in fact 
sharing, that they were doing something nice, that they were 
turning their friends on and being generous, not something that 
individuals that are trying to prevent the drug problem view as 
something good or something healthful.
    So it was with this approach that four or five individuals 
mentioned how they supplied a significant amount of individuals 
in this specific community with drugs; in other words, they 
weren't, in their mind, polluting the community, they weren't 
hurting people; they were in fact helping people. And I mention 
that mentality because it was a little surprising to me, but I 
think it is important to keep the mentality in mind if we are 
going to approach solutions for the drug problem.
    I am happy to go ahead with my statement or introduce 
Connie, whichever is your preference.
    Mr. Hastert. Why don't you go with your statement and then 
introduce Connie.
    Mr. Coghlan. OK.
    First of all, I would like to thank the panelists who bring 
the current information here today. This is current, local 
information--I think that is important--it doesn't come from 
some other area. Thank you very much, Congressman Manzullo and 
Congressman Hastert, for coming to this community. We 
appreciate your show of concern for our drug situation.
    In the last 10 years, I've dealt with the local problem 
ranging from pot pipes to murder. I would like to share five 
things I learned about drugs in this community.
    First of all, in the DeKalb and Sycamore area, we have 
already solved the drug problem for 95 percent of the 12-year-
olds, 92 percent of the 13-year-olds, 65 percent of 14-year-
olds, 45 percent of the 15-year-olds, and 25 percent of the 
local 16-year-olds, so there are some things that are working. 
The reason we focus on the positive is because we believe that 
brings us more energy to approach the difficult parts.
    There are a lot of people around here who've led their 
lives without illegal drugs, so we end up giving them credit. 
We can also thank the conscientious parents, schools, and 
government leaders for the drug prevention efforts. By focusing 
on people who do not use drugs, we can help those who do abuse 
drugs and alcohol.
    Second, many people who abuse drugs and alcohol in the past 
have stopped. They represent another large group in our 
community who have, ``solved the drug problem,'' at least for 
themselves. People who formerly used drugs can help those who 
currently abuse drugs and alcohol, and in fact those are the 
people who provided the facts for the hearing today.
    Third, drugs are drugs. In many respects, it doesn't matter 
what drug a person abuses, people abuse both legal and illegal 
drugs. If we want to reduce drug abuse, we have to look at 
legal and illegal drugs. This approach is less popular because 
it focuses on behavior of adults. We should continue to 
increase drug programs for adults.
    Fourth, age discrimination against young people I believe 
contributes to drug abuse. Society might benefit by cultural 
diversity classes where adults learn more about youth culture. 
As a young person, we could learn about young individuals' 
music, clothing, video games and other aspects by their culture 
which are often criticized by the adults. More adults could 
make special efforts to get to know people between the ages of 
12 and 17.
    Fifth, the word ``goal,'' I found in my interviews, has a 
negative context, and I was surprised to find that. The reason 
it did is, they were often confronted with the statement, don't 
you have any goals? Well, in reality, they have goals, they are 
just maybe impotent goals. And that is what would keep them 
away from drugs is a series of goals; because there are young 
people who say, I have too many things to do in the day, I 
can't find time to do all the activities.
    So when people say they are bored--goals can help people 
achieve happiness and success, but many people don't do this 
because of the negative misconception about goal-setting. It is 
a useful skill, like reading or writing. Goals can be fun; like 
learning to drive a car, it takes more than a brief effort.
    In relation to the drug situation, goal-setting can be 
taught at age 12 and again at age 15. There are numerous 
commercially sold programs to help individuals develop the 
skill of achieving goals, so my recommendation would be there 
be programs available for eighth graders and sophomores, and 
again this comes from my interview with the eight individuals 
between the ages of 14 and 18.
    Thank you.
    Mr. Hastert. Thank you.
    [The prepared statement of Mr. Coghlan follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Would you like to introduce Connie?
    Mr. Coghlan. Yes. I have known Connie since 1991, and 
Connie has some firsthand observations, and I think she is a 
great source of information for you for these congressional 
purposes.
    Mr. Hastert. Connie, if you just pull the mic up so we can 
hear you, we would appreciate it.
    Connie. I was first exposed to drugs at age 12, that was 6 
years ago, in Sycamore. At the age of 12, I saw 15 to 20 people 
get high on pot or tripping on acid almost every day. From 
talking to other kids, age 12, I estimate that 65 out of 600 
junior high school age kids use drugs. That is a little more 
than 10 percent of the pre-high school age people in Sycamore.
    I went to eighth grade DeKalb. There I saw between 10 and 
15 people using drugs on a regular basis.
    When I was 14, I saw approximately 50 people my age using 
pot, acid, cocaine or some other drug. In school I saw as many 
as 40 people who told me they were ``trippin''' on acid or high 
on some other drugs. From what I heard, half my class used pot 
or acid.
    Most of the drug use happened away from schools, and the 
teachers offered programs to help kids stay away from the 
drugs. Most drug use occurred at friends' houses, behind 
buildings or in alleys.
    In the last 6 years, I have seen hundreds of people in the 
DeKalb and Sycamore areas using drugs. I have seen athletes 
turn into burn-outs, students with As and Bs get bad grades, I 
have seen parents ignore their children, and a person crash 
their car into a pole. I also remember one person go into 
seizures and fall to the floor when he mixed alcohol, acid and 
pot. I also know one person who went to jail and another who 
lost his job, all because of drugs.
    From what I have seen only 10 to 15 percent of the drug 
users get caught by police or other people of authority, and 
the people who get caught use drugs 100 times before they get 
caught.
    I know four people who have gone through drug 
rehabilitation programs. I think the most effective way to keep 
people away from drugs is by friends and parents saying it is 
stupid to do them.
    I stayed away from drugs because I have seen how it messed 
up other people who do it. It was a help to me to see people 
who fried their brains on drugs.
    I believe presentations are more effective in smaller 
groups and get more people to pay attention. During school 
assemblies, I noticed most of the students look around the room 
at their friends rather than watching the drug program.
    Today I know between 200 and 300 people who use drugs and 
in my view have no intent to stop.
    Mr. Hastert. Thank you, Connie.
    [The prepared statement of Connie follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. We will move next to Mr. Povlsen.
    Mr. Povlsen. Thank you for inviting me here. I am going to 
come from the perspective of prevention. I direct the DeKalb 
County Partnership for Substance Abuse Free Environment, which 
is a community coalition that we've had in place here in DeKalb 
for the last 8 years. I am going to do something I don't 
usually do and that is read, so bear with me.
    The root causes of substance abuse among teens is very 
complicated. For that reason, the solutions of the problems are 
complex. Traditionally the government has looked at three 
approaches: law enforcement, treatment and prevention. All are 
necessary. These three approaches also focus on two facets of 
the drug use, that is, supply and demand; and I am glad to hear 
that you suggested that that is important.
    I do think, however, that we need to focus more on the 
demand side than we do the supply side. However, what tends to 
be the case in our society with most issues is to react to 
problems, spending an enormous amount of financial, as well as 
human, resources reacting to problems as opposed to being 
proactive and preventing them.
    The analogy I commonly hear is, if the community had a 
problem with persons drowning at an excessively high rate in a 
swift and dangerous river, resources would be spent pulling the 
people out of the river, either resuscitating them or burying 
them, as opposed to going upstream to see the causes of how and 
why they got into the river.
    I want to make that statement again because I think it is 
an important one. If a community had a problem with persons 
drowning at an excessively high rate in a swift and dangerous 
river, resources would be spent pulling the people out of the 
river, resuscitating them, rather than going upstream and 
finding out why they are falling in in the first place.
    The drowning we see in our society, as it relates to 
substance abuse, includes increased incidents of rape, murder, 
assault, burglary, teen pregnancy, dropout rates, gang 
involvement, car crashes, medical costs, et cetera. Every 
problem we have in our society can somehow be traced back to 
substance abuse. While no one will argue we need to get 
criminals off the street, that we need to protect our society, 
as long as we continue to focus on this as the way of dealing 
with it, we will never be able to build enough prisons or hire 
enough policemen to solve the problem.
    The direction that we need to move in our society comes 
from three levels, Federal and State and local. All are 
necessary. Start with Federal, since that is who, I guess, we 
are talking to here. Leadership begins at the top, and you are 
the top.
    Until there truly is a belief that prevention is the key, 
that prevention works--and without prevention, all the jails in 
the world will not stop the problem, and I think leadership is 
more than just appropriating money in support of local 
efforts--the first and foremost responsibility of the Federal 
Government is to take what I think are some very tough stands 
against some very powerful industries and financial supporters 
of our legislators, namely, the liquor, tobacco, and 
entertainment industries.
    As long as we have these three industries in the Nation 
continuing to influence our young people in terms of marketing, 
advertising, and probably the most important thing, setting the 
norms of our society, we will continue to have our young people 
fall into the perilous river of substance abuse and violence. 
Regardless of what anyone says, these industries are 
establishing the norms and influencing the life-styles of our 
society.
    I applaud the direction that Congress has taken against the 
tobacco industry. It is a stance in a direction we must go and 
should have taken long ago. We must now do the same with the 
liquor industry and eventually deal with the violence and other 
problems that we see, that are seen in the entertainment 
industry. These types of issues can best be dealt with at the 
top and certainly it's the role of the Federal Government.
    The second responsibility of our Federal Government is to 
provide adequate financial supports to States and communities 
in establishing and maintaining community prevention 
collaborations. While the government must not pay the way--and 
we have not had our way paid here with our local partnership--
it must be there to support the startup costs and the 
continuation as local communities struggle to continue.
    This also includes the rural areas, and I am glad to see 
you are out here in the rural area, as well as the urban. In 
fact, rural areas have unique problems in establishing 
coalitions not present in the urban areas.
    I think it is also important to note that urban 
communities, like DeKalb and surrounding areas, don't need 
hundreds of thousands of dollars, and the RFPs that I have seen 
come out where, unless you have a community where there are 
hundreds of thousands of dollars necessary, were not eligible, 
and that sometimes eliminates us from the smaller amounts, 
where the community can use $10, $15, $20,000 and do a 
tremendous amount of work. That is what I see the Federal 
Government needing.
    The State government, their role is similar to the Federal 
Government; however, it is more important in providing a 
modeled structure and guidance, and I guess I will talk to Brad 
on this one.
    Although it is important that each community address the 
prevention issues related and implemented and monitored to the 
outcomes of the effectiveness, the State can act as an 
effective administrative and fiscal agent in monitoring and 
distributing Federal funds, the State should not be in the 
business of doing prevention, but rather administering 
prevention, which I think Illinois does a good job of.
    And locally--and I think this is where the key is--it is 
local communities' role to develop local community coalitions 
to address the needs of the community. Most communities are 
rich with service clubs, school prevention programs, law 
enforcement, religious organizations, employee assistance 
programming in businesses, media coverage, social services, 
recreation, parents and families. It is the role of the 
community to develop a coalition of these efforts to maximize 
their efforts to attain the common goal of reducing alcohol and 
other drugs.
    The community must look inward to its own resources and not 
outwards. It must develop its own strategies, it must develop 
its own expectations and its own community norms. I think the 
community needs to look at what norms it has in its community 
that glamorize or promote substance abuse, and we see that in 
the families, most certainly.
    Communities don't need money to develop new programs, they 
don't need money to start new agencies, they don't need money 
to invent new bureaucracy; they need some financial support to 
begin developing and maintaining cooperative efforts.
    In conclusion, the drug threat to our teens in our rural 
communities is not going to get better until the norms of our 
society--and I want to stress that, the norms of our society as 
it relates to alcohol and other drugs and violence change--
these norms are not going to change as long as we continue to 
embrace the very dangerous and influential industries such as 
the alcohol, tobacco, and entertainment industries. As long as 
we have these three industries glamorizing the very things that 
prevention programs are trying to address, as negative 
instructions to our youth, we will continue to lose the battle.
    Thank you.
    Mr. Hastert. Thank you very much.
    [The prepared statement of Mr. Povlsen follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Mr. Coghlan, I am going to ask you to 
introduce another one of our witnesses.
    Mr. Coghlan. Congressman, this is Mr. Cole. I have known 
Mr. Cole for several years. He is originally from the Chicago 
area--actually, Chicago and New York--and he has been in the 
DeKalb area for a number of years, 10 or so, and he is a very 
rich source of information. He has a statement for Congress 
today.
    Mr. Cole.
    Mr. Hastert. And for the record, you will be introduced as 
Jerome.
    Jerome. Hi. My name is Jerome Cole. I am here to tell you 
about the drugs in the DeKalb area and the surrounding areas 
around here.
    I know a lot about the drugs because I used to use drugs. I 
also sold drugs to people, and I organized people to sell drugs 
in this area. Until recently, I lived in the area that had the 
highest drug rate possibly in DeKalb. The building I lived in 
was considered a haven for drug users and people that wanted to 
drop by and sell different types of drugs.
    I know different people in DeKalb that are using drugs 
right now, and it is getting--I can't say it is getting way out 
of hand, because I think it is leveling off and drugs are 
picking up pretty much everywhere. I know a couple young kids, 
10, 11, 12, all the way down to 8 and 9 years old, that use 
drugs. Cocaine use in DeKalb has leveled off a little bit, but 
different drugs are coming into DeKalb to attract a different 
type of people.
    For instance, like the skateboarders like to use a lot of 
drugs to make themselves trip, or what you call hallucinate. 
And then you have the athletes. A lot of athletes use a lot of 
marijuana and use a lot of cocaine. Recently in DeKalb, people 
have been sprinkling crack cocaine on blunt. Blunt is a cigar 
which is hollowed out and refilled with marijuana or weed, and 
this mixture of cocaine and pot can stop a person's heart.
    Heroin is also used in DeKalb. I know six people in DeKalb 
who are hooked on heroin. Heroin is the lowest of the low in 
the drug chain. Most people snort it, but others pocket it or 
shoot it in their arms. Heroin is not sold in the DeKalb area, 
as far as I know. They drive to Chicago to get heroin. When the 
heroin high is over, the users usually get a lot of physical 
pains, like back pains, stomach pains, leg pains. They function 
when they are on heroin, but they walk around like zombies when 
it wears off.
    I have seen many people going from smoking pot occasionally 
to like full-time drug users, guys who were real close to me, 
athletes, people considered respected in the community as 
businessmen.
    Some police have been more effective with the young kids by 
speaking to them, talking to them, getting to know the 
different people and getting to know the people they hang 
around and the drug users. Local church programs and job 
programs and the youth activity programs are also very helpful 
to reduce drug use.
    I am a local business manager, and I have hired at least 25 
people to help them stay away from the drugs. I have also 
helped organize youth activities locally. I have come into 
contact with 200 or 300 people in these positive activities, 
and I think church programs, jobs, and sport activities keep 
kids away from drugs. It deters their mind to doing other 
things when they have positive programs to help them out.
    The drug and gang uses in DeKalb will only stop when they 
stop at the top, because behind every puppet is a puppeteer, 
somebody pulling the strings. So when there are enough 
activities in the areas to get the kids to do other things, I 
think kids would make positive choices among themselves. And 
that is basically why I go with that.
    [The prepared statement of Jerome follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you very much. We are going to come back 
and ask you questions.
    Jerome. No problem.
    Mr. Hastert. Let me lead off the questions.
    First of all, Mr. Coghlan, you talked about setting goals 
in communities and you said busy kids don't use drugs. So you 
are saying kids that are involved in school communities or 
school activities, community activities, basically are kids 
that don't necessarily--or aren't apt to get involved.
    Mr. Coghlan. As part of my survey, I also talked to young 
individuals who, I had assumed, never used any drugs, and they 
told me they never did, and that was based upon a lot of 
activities, extracurricular activities.
    And the interesting thing I would also like to note is, the 
individuals heavily involved with drugs estimated the people 
that partied were at 80 percent. That means people that use 
drugs, alcohol, under age are 80 percent. Whereas nondrug users 
estimated it at 40 percent, which is a significant perception 
difference. The non-drug estimated users are lower, in answer 
to your question.
    Mr. Hastert. And this is all survey.
    Mr. Coghlan. This is a very unscientific survey of eight 
individuals, and I am the telephone messenger.
    Mr. Hastert. Connie, you talked about getting involved in 
drugs when you were 12 years old or being confronted with a 
drug situation when you were 12 years old, and you said at that 
time you were a sixth grader, and your estimation is 10 percent 
of the kids in your class in your community that were in some 
way involved in drugs, that is sixth grade, 12 years of age.
    Connie. Yes.
    Mr. Hastert. What is the defining factor between kids who 
get involved in drugs and don't get involved in drugs, in your 
opinion?
    Connie. I feel most people that do get involved in drugs 
are because of like their friends and stuff, and their friends 
have gotten involved in drugs that have like older siblings, 
and they get into it, either the older siblings or the parents 
get them into it, and they see everyone else doing it.
    Mr. Hastert. Jerome, you talked about you were distributing 
drugs and kind of running an organization. Was that a gang?
    Jerome. It was through a gang.
    Mr. Hastert. It was through a gang.
    Jerome. It was through gang activity.
    Mr. Hastert. Is that one of the reasons you ended up in 
this area in the first place, to run that organization?
    Jerome. I came here to go to school. I was recruited here 
to play football, and after my football career ended, things 
kind of got out of hand.
    When you are young and you look at a football career, every 
young kid playing football thinks he is going to be a big-time 
athlete, and when that gets cut from you, I am not saying that 
that is a reason to do that, but I needed other things to do. I 
was already, quote/unquote, involved with small gang 
activities, and they knew that I knew a lot of people, so I was 
kind of used for that purpose. I mean, in the gang every person 
has a purpose, if you are not a soldier. I was not a soldier, I 
had a position, so my purpose was to do other things like 
recruit and bring money to the organization.
    Mr. Hastert. Why don't you tell us for a minute, to give us 
some insight, what are the differences between soldiers and a 
person with a position.
    Jerome. It's like an army; you have soldiers and the guys 
that go out and do the fighting or do the looting and the 
drive-bys, and then you have guys that tell them to do it, guys 
in the back, guys who recruit more gang members, to make the 
gang stronger.
    Mr. Hastert. What is the appeal--if somebody in a gang 
would go out and recruit, what is their appeal of young kids? I 
think they are pretty young when they start recruiting those 
kids to a gang. What is the appeal? What is the sales pitch?
    Jerome. Well, a lot of the young kids, when activities are 
not present, they need something to do or something to be a 
part of, and the main thing is to get the energy. The energy of 
youth is misguided. If the energy was guided toward more 
positive things, it would be harder to recruit a kid.
    For instance, if I was to go to a kid and he had a strong 
family background and was involved in things, he would be real 
hard to get. There is nothing I could tell him to get him to 
come to the dark side. But if the kid is dysfunctional and is 
from a dysfunctional family, I could easily get him. I could 
tell him that, ``We are your family now. What do you want, 
money?'' And that whole time, if you get them high, they are 
not thinking clearly anyway, so the rhetoric that I am giving 
them, it sounds even more enticing, because they are not 
thinking anyway.
    Mr. Hastert. One of the recruiting methods is to offer kids 
drugs.
    Jerome. Well, no.
    Mr. Hastert. I misunderstood you then.
    Jerome. What I am saying is, if the kid is high, it is more 
likely that he is not thinking clearly, so I have an even 
better chance at recruiting him, because once he makes the 
oath, once he comes down from the drugs, he has made the oath, 
so he is almost automatically in.
    Mr. Hastert. Let me ask you another thing. The function of 
the gang itself is a lot of the things that finance the gangs, 
the activities.
    Jerome. Drugs usually finance the gangs.
    Mr. Hastert. So drugs are the financial arm of the gangs. A 
lot of the problems we see in some of our urban and suburban 
communities, even places like Aurora and Elgin, are fights 
between gangs. I mean, we hear there are turf battles. Is that 
really areas where they sell drugs? Is that part of the turf?
    Jerome. If it was an area that more drug users will come by 
and buy the drugs, the rival gangs would try to take over the 
area, because the area, obviously, would be the money-making 
area.
    If it was a building that a lot of people had drug problems 
in, drug sellers want to be in that building, because he has a 
lot of people that are consuming the drugs as product. So if a 
rival gang sees that the building is where all the drug users 
are going, you know, his team wants that, so that is where the 
battle begins.
    Mr. Hastert. Ms. Maakestad, one of the things I wanted to 
ask you--and you have certainly been through the other side of 
this pain and problem. You may want to pull the mic over to 
answer.
    In retrospect, you have lost a son, kind of a unique 
situation, but it happens, unfortunately, more than it should 
in this country. If you saw and you could do things different 
or manage events differently, what would be the things to keep 
your son off the drugs and to actually, if he was on them, to 
make him whole again?
    Ms. Maakestad. I think if I would have had the education, 
maybe through schooling, or through the schools, or maybe 
outside education or something, more on the gangs and the 
drugs, I would have been able to recognize the signs and the 
symbols and all that, you know, that he was doing the drugs and 
that he was in the gangs.
    Mr. Hastert. You basically were unaware--what age did he 
get involved?
    Ms. Maakestad. I was told around 14 or 15.
    Mr. Hastert. And sometimes--I have had teenagers myself, 
and you really don't understand the changes they are going 
through, different personalities and stuff. You sense that that 
is what happened at that age and that you were really unaware 
his involvement in drugs was going on at that time.
    Ms. Maakestad. Yes, it was that strong, I didn't realize.
    Mr. Hastert. How did your son finance his use of drugs?
    Ms. Maakestad. Through the gangs.
    Mr. Hastert. Through the gangs. OK.
    Mr. Povlsen, a couple things. I want to tell you, first of 
all, I appreciate your testimony, and I don't disagree with 
you; I think we need to have a balance, to look at the business 
side of this. There is a lot of money being made from drugs, 
and I think we need to make sure that those people who make 
billions of dollars from this business are taken out of the 
other end of the river, where people are falling and drowning 
as well.
    But, I just want to tell you that just 10 days ago I was at 
the White House, and the President signed the bill called the 
1997 Community Antidrug Coalitions Act, which is what you 
said--not a lot of Federal money. I don't think throwing money 
at problems is always a solution.
    But the whole gist or focus of that act was to have 
organizations within the community come together if they needed 
a little help, some matching funds, to help them get a director 
or secretary or something. But they have to be in place, the 
funds have to be there, and there is a little help on the 
Federal side to help make that work. So I hope that is 
certainly in the focus of what you are talking about.
    One of the things I wanted to address, when you are talking 
about communities setting goals, that those--sometimes the 
norms that you speak of--how do you change from inside out? 
Because I don't think it works outside in. How do you change 
the norms of a community or society? How would you change the 
norms of a DeKalb, IL?
    Mr. Povlsen. First of all, you have to get the people 
together, talking and look at hard issues, and that is why I 
said it starts at the top. I think we need to look at those 
things in our community that made--and I just need to say 
something, that we are focusing a lot on drugs and gangs, and I 
think we need to focus on that, but I think if you look 
statistically, I think the most dangerous and destructive drugs 
we have in our society and if you walk into any high school, it 
is alcohol, and that's a tougher nut to crack. We have to look 
at our own societal norms that relate to that and the way we 
ourselves drink or we promote drinking or glamorize drinking.
    So I just want to say that we don't lose sight of what is 
a--maybe not as glamorous and maybe is an intensive thing as 
looking at a gang-type drug deal, but going to the high school, 
we have Mr. Nakonechny here, and he can tell you--I hope he has 
a chance to speak--the most dangerous drugs we see at our high 
school is the alcohol use, and that is where we need to start. 
We need to start looking at our own homes and communities and 
our beer gardens in our community. We need to start looking at 
what our coaches and our teachers and our police officers and 
our politicians and things that every one of us do as a 
community leader, whether we are a Little League coach or 
whether we're a teacher, that every one of us have a 
responsibility in the community to mentor youth, to talk with 
youth, to set the standards, to set their own personal goals.
    And, you know, the Little League coach, who goes out and 
Little Leagues does a good job and is seen at the corner tavern 
drinking in a blatant fashion, is not acceptable. That is a 
norm that we need to look at.
    And so I think that that is where we need to start in the 
community. We need to start with us as individuals and not 
point the finger somewhere else and look at our own family use.
    The one question you asked of Connie: What are the most 
influential things or what things would stop a child, a young 
person, from drinking? We held a youth forum here in DeKalb a 
few weeks ago, and the single most important factor that 
influenced the young people to stay off alcohol and other 
drinks was their parents. And I know that, as parents--I have 
children myself, you have children--we often don't think we 
have influence over our kids because they will fight us the 
whole way, but children will say it starts at home. The example 
you set and the norms you set in your home are what make me who 
I am today.
    Mr. Hastert. So part of this is communication. And, you 
know, I taught for 16 years, so I have a little bit of feeling 
about how kids communicate. You have families that, quote/
unquote, sometimes are the ideal families, and the reality is 
that you also have families that are struggling to get along. 
Many are single-parent families, not the ideal, but it has 
become more the norm than the other situation.
    So you think communication--not everybody is going to be 
the ideal, whatever that ideal is, in raising them or whatever. 
So how can communities support or help that? Is it just the 
dialog itself? Are there other ways you can reach kids, in your 
opinion?
    Mr. Povlsen. I think the communities need to do what they 
need to do, and there are different social services that can 
provide that, and I think we need to reach out of our own homes 
and reach down the street to that neighborhood and become aware 
of that single mom or that child that is struggling or is out 
past curfew, help the neighbor, as the lady at the end said, 
``if I could have gotten some more education.''
    My guess is that there were other people that recognized 
that her son was having problems. We can't be afraid to step 
forward and try to help our neighbors out, network with each 
other as parents. One of the things that got me through to my 
teenagers, that are off on their own now, is that I would talk 
to the other parents and community leaders, I would not be 
afraid to go into the school and talk to the teacher. 
Communication is exactly it. We can't go into our own shell and 
lock our door and think of our kid as safe and then the 
community as safe. We need to be the parents, guardians, and 
mentors for our entire community.
    Mr. Hastert. Connie, what do you feel about parental 
support?
    Connie. A lot of my friends were from single homes or 
single-family homes, or single-parent, and a lot of times their 
parents weren't around. So, you know, a lot of times they came 
to my house. They were at my house more than they were at home. 
Honestly, around my friends, I don't see the parents helping 
them out or anything or that they are really there for them.
    Mr. Hastert. A lot of parents were working, this type of 
thing.
    Connie. Well, a lot of the parents went out, themselves.
    Mr. Hastert. I am going to turn the mic over to my 
colleague, but I would like to reserve and come back in the 
second round of questions.
    Mr. Manzullo. Thank you, Congressman Hastert.
    The 1997 Community Antidrug Coalition Act was known in the 
House of Representatives as the Hastert-Portman Act, and I just 
want to commend Denny for the leadership.
    We have a group of about eight Members of Congress that 
meet once a month, Wednesday at 8 a.m., and we met with so many 
people that are involved in all aspects of this plague on our 
young people. But if I recall, about 2 months ago, Denny, we 
had the generals and the admirals in charge of interdiction of 
drugs coming in from South America. It was quite interesting.
    Mr. Povlsen, let me ask you a hypothetical question. For 
every 100 kids that are involved in drugs, how many come from 
two-parent households?
    Mr. Povlsen. Well, I think statistics show that only about 
half of the kids, to begin with, come from two-parent 
households, or very few.
    The question was how many drug users would come from----
    Mr. Manzullo. No, no. For every 100 kids that become 
involved in drugs, how many come from two-parent households?
    Mr. Povlsen. I really don't have the answer to that 
question. I would think that--I would ask you a question back. 
Where are you wanting to go with that?
    Mr. Manzullo. Well, the reason I asked the question is that 
it is easy to make the assumption that one of the main reasons 
children are hung up on drugs is that they come from a, quote, 
dysfunctional family, and most people will translate 
dysfunctional family into a one-parent household.
    Mr. Povlsen. I would not say that is the key.
    Mr. Manzullo. OK. That is the question.
    Mr. Povlsen. And nowhere in my testimony did I say anything 
about one-parent households.
    Mr. Manzullo. All right. So the question really is, explain 
what is meant by a dysfunctional family.
    Mr. Povlsen. From my own perspective, a dysfunctional 
family, I think, is a family where there is little direction, 
there is little support, the parents are using drugs themselves 
or setting standards in the household that I think are not good 
ones for the community. That is what I would consider 
dysfunctional. It doesn't have anything to do with income, 
marital status----
    Mr. Manzullo. Or the number of parents.
    Mr. Povlsen. Or the number of parents in the household.
    Mr. Manzullo. I know that was a loaded question, but it was 
very critical to get that out, because there is such a 
misconception in the community that if a child is from a one-
parent household, the chances are more likely that the child 
may get involved in drugs, and you don't agree with that 
assumption, do you?
    Mr. Povlsen. No.
    Mr. Manzullo. Neither do I.
    Let me ask you a question, Pam. You have suffered the 
ultimate tragedy as a result of a child being involved in 
drugs. You said that if you had been able to tell the signs or 
to observe the signs of a child being pulled into drugs, that 
you might have been able to do something. What are the signs?
    Ms. Maakestad. To give you an example, I have a 26-year-old 
daughter who was about 15 when she went into Rose Crantz with a 
drug and alcohol problem, and we went through the same things 
that we did with Brent, with the treatment programs and all 
that kind of stuff.
    Well, while we were going through this, we were getting 
information from Sheila about where they were getting their 
drugs, where they were getting their alcohol, and it happened 
that she was getting it from the school.
    Mr. Manzullo. What do you mean, from the school?
    Ms. Maakestad. From some man. I am not sure who it was, but 
there was a gentleman who would come to the back of the tennis 
courts and was selling them alcohol and drugs, and he would be 
there at a certain time every day and do whatever--you know, 
deal whatever to the kids, and they would do whatever, I assume 
whatever they had to, to get the drugs and the alcohol.
    My daughter didn't have a lot of money. I know that, 
because we didn't have a lot of money. When I confronted the 
school about it, they said, ``Oh, yes, we have been watching 
that problem for about 6 months now,'' and I said, ``But why 
hasn't anything been done?'' And so I called the police 
department, and within a couple of weeks the man was busted.
    But they didn't have a clue. The school hadn't even 
communicated with them that they were even watching these 
people. And then the principal of that school also told my 
daughter, after she got out of treatment, that she may as well 
just quit school as soon as she turns 16 because she was a 
worthless piece of shit anyways, and that was the exact words. 
So, she did quit school, and she never did go back. She now has 
three children.
    Mr. Manzullo. So both of your children were hung up on 
drugs.
    Ms. Maakestad. I have three children. Connie is my daughter 
also.
    Mr. Manzullo. Oh, I didn't know that.
    Well, Connie, let me ask you a question. You are how old 
now?
    Connie. 18.
    Mr. Manzullo. What are the telltale signs? What did you do 
differently as a person who became introduced to drugs that 
parents should look at?
    Connie. I watched my brother and sister, and I seen what 
happened to them, how the drugs messed them up, and I didn't 
want to be like that, so I stayed away from it.
    Mr. Manzullo. And, Jerome, you are a very interesting 
person, and I appreciate you coming here to share your 
testimony this morning. Children get pulled into gangs, 
regardless of social, economic background; is that correct?
    Jerome. Sure.
    Mr. Manzullo. Tell me what you have seen in terms of the 
background of the children.
    Jerome. You get a lot of kids from the suburbs that will 
come to the city just to see the life-style that they see on 
TV. They see it on TV, and they think this has got to be cool 
because it is on TV. So you get a lot of suburban kids that 
come out of the city, and those are the easiest prey. You can 
almost make them do almost anything, because they are trying to 
fit and trying to glamorize anything they say on TV anyways.
    So if I knew a group of kids that were coming from afar 
just to hang out in the, quote/unquote, hood, that is it, you 
could get them to do anything, you know.
    Mr. Manzullo. These were suburban kids coming to the city.
    Jerome. Just to see that type of life-style that they see 
on TV.
    Mr. Manzullo. How old are the kids?
    Jerome. As young as 12 or 13.
    Mr. Manzullo. How are they getting there? Are the parents 
taking them there?
    Jerome. By car. 15-year-olds, 16-year-olds, 17-year-olds 
have a license, drive to the city, want to hang out in the 
projects, just to see what it is about.
    Mr. Manzullo. A lot of that goes on?
    Jerome. A lot of it goes on because of the way the media 
covers what happens in the ``hood.''
    Mr. Hastert. I just want to followup. Some of the movies, 
people go to the movies and see the ``hood'' and all this 
stuff. Is that kind of pushing them?
    Jerome. That is exactly what will do it.
    Mr. Manzullo. A question to you, Jerome, or you, Mr. 
Povlsen: What movies? Name them. What movies are detrimental to 
the children in getting kids hooked on drugs? You mentioned the 
entertainment industry. Let's mention them by name here.
    Mr. Povlsen. Well, I am not going to mention them by name, 
because I choose not to go to them.
    Mr. Manzullo. The reason I ask the question is, one of the 
purposes of the hearing is so that parents can be more aware of 
what is out there. The movie producers are doing things to get 
our kids on drugs. If you don't mind, let's name them. 
Otherwise, how are people supposed to know? It is a generic 
answer. I do not want to put you on the spot.
    Mr. Povlsen. Well, I can't think of any off the top of my 
head, but any movie where you see violence and cigarette 
smoking. I guarantee you will not see a movie where you don't 
see cigarette smoking, and cigarette smoking and alcohol are 
the gateway to other drugs, and it is glamorized. It is being 
paid for by the tobacco industry; it is being paid for by the 
liquor industries.
    Movies have violence, cigarette smoking, gangs, and it is 
all the glamorization. You walk into the ``hood,'' and people 
get blown away, and at the end you see the excitement of it and 
the glamour of it and not the trauma of it that this poor lady 
at the end here had to deal with, and that is an industry that 
we are not willing to tackle.
    Mr. Manzullo. Connie, do you agree with that statement?
    Connie. In some ways.
    Mr. Manzullo. Well, tell me which ways you agree, because 
alcohol and tobacco are not going to be illegal, at least at 
this point. Drugs are illegal.
    Mr. Manzullo. I don't think cigarettes and alcohol are the 
gateways--maybe alcohol. I know a lot of people who smoke that 
don't get into drugs. I don't feel that is a gateway to drugs.
    Mr. Manzullo. Jerome, do you agree with the statement or 
disagree with the statement?
    Jerome. I can't say that. I just think the key is to have 
preventive measures, regardless of what they see, as far as 
drinking and smoking. If they have preventive measures, I think 
a lot of them will make the right choices. It is the other 
things, besides the cigarette smoking and drinking, that are 
attracting the kids. I know that for a fact.
    Mr. Manzullo. Mr. Povlsen is coming from a much broader 
perspective.
    How many kids have you dealt with?
    Mr. Povlsen. Hundreds over the last 25 years.
    Mr. Manzullo. And these are observations that you have made 
based upon what the kids tell you, so you have a lot of inside 
information to which we are not privy.
    When kids see people drinking on television, that 
encourages them to drink or not to drink? What does it do?
    Mr. Povlsen. It is such a subtle--if you ask a kid, ``Did 
you start drinking because of a movie you saw?'' they will say 
no. But it gets back to the entire social norm. You can't tell 
me an 11-year-old kid who is sneaking a cigarette, doing 
something illegal, that is exciting, enticing, something he 
shouldn't be doing, doesn't lead to the next step of trying to 
get the beer and then trying to get the whatever up the road.
    The entertainment industry and what they see their parents 
doing are what is an acceptable thing to do. It's so subtle and 
so long--so much over a long period of time that it is not any 
one single incident that creates that.
    Mr. Hastert. So what you are actually saying is that in 
your open illustration--is that every society should pull the 
people out that are drowning, and we do that, and it is very 
expensive, and treatment is expensive, recidivism is very high. 
Basically what you are saying is, you have to go up river 
anyway and stop people from falling in, and you put up the 
fences, you put up the gates, you put up the detours so people 
don't fall in the river and drown in the first place. Is that 
what you are really saying?
    Mr. Povlsen. Yes, absolutely, and sometimes building the 
fences forces us to look in our own pocketbooks and our own 
behaviors, and that is what we don't want to look at. It is 
easier to pull and label the individual who happened to fall in 
or was pushed in.
    Mr. Hastert. Congressman, we are going to come back for a 
second round. At this time, I would like to have Mr. Coghlan 
introduce another witness. I understand this witness has been 
involved in gangs in another life and is now working in faith-
based operations to try to keep kids from getting involved.
    Give us a little introduction, and we would like to hear 
your testimony.
    Mr. Coghlan. Mr. Smith is here today, and he helps perform 
a very helpful function in the DeKalb area to reaching out to 
individuals around the seventh and eighth grades. He has done a 
lot for the community, from organizing basketball and church 
events to this father's program, and Mr. Smith also has 
familiarity with the street gangs from the city of Chicago, and 
he sees the cycles they have gone through in the city of 
Chicago from perhaps 30 years ago, and he also has a good idea 
of what is occurring here locally in the DeKalb and Sycamore 
areas.
    Mr. Smith.
    Mr. Hastert. We welcome you as well.
    Derrick. Like I said, I am Derrick Smith and I have been in 
DeKalb since 1972. I came to DeKalb from Chicago, and when I 
was growing up in Chicago, I was telling Mike that I was 
involved in gang activity, drug activity, of which I came up 
here to DeKalb and brought some of that activity with me.
    But in 1977, I got my life back together and turned things 
around, and so right now my crusade is to try to help 
individuals that are falling under the same umbrella that I was 
in and to come out of it. And what I wanted to do for most of 
the kids, I am trying to show them a good side as well as a bad 
side of the city, because I grew up in the projects in Chicago.
    When you see 75 percent of the good of drug use and being 
involved in gangs, and 25 percent of, you know, what is not 
good, you end up taking that 75 percent. But if I can show them 
50 percent of what is good, things you can do with an 
education, things you can do with somebody as a mentor, because 
I found out the best thing we have done so far in DeKalb County 
with the young people is our mentoring program, because we 
found a lot of parents coming back to school in DeKalb and a 
lot of parents trying to get out of Chicago and other urban 
areas to try to find a better place for the kids.
    And you find a lot of single parents, and you find a lot of 
young people who are just not involved in positive things that 
they want to get involved with here in DeKalb. And I don't 
think DeKalb at the time was ready, because I look at the 
school system, and you have in DeKalb and you had--we had one 
black teacher now that they hired for the fall, and one of the 
mentor programs that we started was seventh and eighth graders, 
because we were having a lot of problems with the African 
American males in the seventh and eighth grade Hunter Middle 
School.
    So we went ahead and observed what was going on, and we saw 
a lot of teachers just didn't understand, because it is a 
different culture and they weren't experienced in dealing with 
African Americans. So we came in and tried to help them make 
the transition and tried to help young people make the 
transition too. And we found out through our efforts that the 
teachers were more willing to help students with special needs 
and students were more willing to listen to what the teachers 
were saying.
    So with that group we had there, we targeted eight 
students, but we had maybe 20, and we ended up--with the help 
of Mr. Rodriguez, the principal at Hunter Middle School, we 
developed a relationship with their school and with those young 
people, and it was a positive relationship, because I think at 
the seventh- and eighth-grade level is the level you have to 
look at. That is the group that is looking. They don't know 
what they want to do.
    And if you have someone come in showing fast money and with 
the current situation you have, currently, economically, where 
I was growing up, we had jobs they had for the summer, but 
through different Presidents that came through, that took a lot 
of the youth programs and a lot of the youth summer jobs and 
just kind of left young people out there.
    So what we are trying to do is give them something to do. 
And I think the idle time is what really kills them, and so the 
time we try to give them something positive to do, it takes 
care of the idle time and it develops a relationship where they 
could see some positivity with older African males and make 
them a positive asset as far as in the community.
    [The prepared statement of Derrick follows:]



    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Let me ask you, you came out to DeKalb in 
1972. Did you come out here just to organize a gang, or did you 
come out here because you are an athlete, or what happened?
    Derrick. I came out because I was in school and I was an 
athlete.
    Mr. Hastert. So let's go down to what you are doing now. 
You are working with--basically, churches, basically faith-
based organizations--and the success rate you had with the kids 
is not just teaching them or mentoring them, but also giving 
them something else as a replacement that drugs gave them 
before; is that right?
    Derrick. Right.
    Mr. Hastert. How does that work?
    Derrick. It works very well. We have men from our Men's 
Club and we bring the young guys in. Like we had a grant from 
DCFS for positive youth development. It was a grant for $5,000 
for 3 years, which--unfortunately, it ran out.
    But we would have self-esteem workshops at a hotel where we 
would take 25 young guys from fifth grade to eighth grade to 
the hotel, and most had never been to a hotel, and so this was 
something outstanding to them. And at the hotel we would have 
eight men from the Men's Club, somebody that was--had a 
professionalism in health. We would teach them health, we would 
go into gang prevention, we would go into drug prevention, we 
would go into all the parts of education, young fathers, sex 
education, and we would have various topics on the subjects, 
and we would discuss them thoroughly for 2 days like--the young 
men, and we tried to find out where their heads were.
    Through that relationship, that is where we began a 
relationship where if something was going wrong, like say we 
have a basketball team and one of the guys on the basketball 
team was using drugs or he knew somebody that was using drugs, 
one of the players, that got to the point where we developed a 
relationship, where they had so much faith in it, they would 
tell us, you know, Mr. Smith, you need to talk to so-and-so, 
because I think he is involved with drugs, or he is hanging out 
with so-and-so, or he might be involved with gang activities. 
And with my counseling background, I would talk to individuals 
and see where their head was, and I would sit down; and for the 
most part, we would do free counseling sessions with the 
individuals, and if it meant bringing in the family, we would 
do that too.
    Mr. Hastert. It was pretty successful?
    Derrick. Very successful.
    Mr. Hastert. Jerome was talking to us a little bit and he 
came to DeKalb under the same circumstances you did, his career 
was over and he had a void in his life and some involvement 
with drugs--not with drugs, but with gangs, and you were kind 
of on a parallel track, right? Were you involved, when you were 
in Chicago, in a gang?
    Derrick. Right.
    Mr. Hastert. Then you came out here and did you recruit a 
gang here?
    Derrick. When I first came out here, I didn't really 
recruit. I was recruiting guys to sell drugs for me, but for 
the most part, guys who were in the gang I was in, they would 
come up on the weekends really.
    Mr. Hastert. They recruited people to sell drugs?
    Derrick. Right.
    Mr. Hastert. Was that part of the gang?
    Derrick. They didn't necessarily have to be in a gang. 
Basically, at that time, I just wanted to make some money.
    Mr. Hastert. When you sold drugs on the streets, wherever, 
in DeKalb and DeKalb County, was it any different than selling 
drugs in Chicago?
    Derrick. It was basically different because I don't think 
the police were aware, as aware as the police in Chicago if you 
were selling drugs or doing anything like that, because we 
would almost say, you go to DeKalb, you don't have to worry 
about getting busted because the police there don't really know 
what is going on.
    Mr. Hastert. Has that changed?
    Derrick. Yes.
    Mr. Hastert. I just want to set the record straight.
    Derrick. That was 1972, and now we are looking at 1997, so, 
you know, it has been a big change.
    Mr. Hastert. From your experience being involved in a gang 
and selling it, now trying to be on the other end of this, what 
has happened? Are the prices of drugs on the streets in DeKalb 
County different from the prices of drugs on the street in 
Chicago?
    Derrick. Yes.
    Mr. Hastert. Much? Higher or cheaper?
    Derrick. For the most part, cheaper.
    Mr. Hastert. Why?
    Derrick. Because you have a college town and most of the 
time, you have a college town, you get a better discount than 
you would get if you were selling drugs in Chicago.
    Mr. Hastert. That is informational and interesting.
    Let me ask you also, have the drugs changed? Has the purity 
level, prices in the last 10 years, have they gone up? Have 
they gone down? What have you seen? The reason I ask this is, 
our information tells us, cocaine--especially where cocaine, 
sometimes cut down; if it was 30 to 40 percent pure, today it 
is 90 percent pure and prices used to be higher--it is cheaper.
    Is that true, not true, in your experience?
    Derrick. I would think it is more potent now. I think about 
the last 3 or 4 years, you see more potent drugs on the street, 
because there was a time, especially during the 1980's, where 
the quality was really slipping and you had less drug usage, 
but from the time of about, say, 1991 or since the 1990's, it 
seems like drugs, somehow they are more potent.
    Mr. Hastert. Jerome, do you want to put your insight into 
the same question?
    Jerome. I think what makes it more potent is by there being 
so many drug users now and drug dealers, they chop it up and 
put so many different drugs on it to make it stronger. I think 
the purity of it is lower now, but when people cut it and put 
the drugs on it to expand it, that is what makes the drug even 
more dangerous than it already is.
    For instance, blunt, when they take the blunt, empty the 
blunt out of the cigar and put the marijuana in it, you have 
people who sprinkle crack cocaine on top of it to make the 
blunt even stronger. So the mixture of all the drugs is what is 
making the drugs stronger.
    I don't think it is the purity of it. I'm positive.
    Mr. Hastert. At least what the DEA tells us, I think the 
purity is higher.
    Jerome. I think they chop it up so much now because there 
are so many drug dealers and users, everybody wants to be known 
to have the best drugs, so they put anything on it to make it 
stronger, rat poisoning, PCP, anything.
    Mr. Hastert. So there is heroin on the blunt, marijuana 
stuff as well.
    Jerome. Heroin, cocaine, whatever, just to make it 
stronger.
    Mr. Hastert. Mike, in your experience as States Attorney 
here, what are the most effective things, in your view, that 
were done to try to turn things around?
    Mr. Coghlan. I think a police officer, for example, 
speaking directly to a drug-using individual in a respectful 
manner would help that person free themselves from drug use. I 
encounter a lot of individuals as witnesses on cases, and it 
was actually a pleasure to deal with the individuals. They were 
doing good community service, even though they had been 
criminally involved in the past and even though they had been 
involved with drugs or drug dealing in the past.
    To answer your question briefly, to get in to know 
personally the individuals who are referred to as the drug 
dealers, I call them human beings temporarily involved in the 
habit of selling drugs, soon to be extricated by our helping 
hand. It's a different perspective, but that is what I see 
actually works, because it is our children that are selling 
drugs.
    These are human beings like these very helpful individuals 
here with me at the table today; and the ``us versus them'' 
mentality can be overcome on the local level, when, like a lot 
of very fine DeKalb police officers do--and these individuals 
at the table will tell you, when they stop them, even though 
they are going to arrest them for a small quantity, for 
possession of a drug, they will say, did you see the Bulls game 
last night, how are things at home, and they will engage them 
in a conversation.
    Community policing, I suppose, would be the general term 
for it. And that is what I have seen, and that is why these 
individuals have been kind enough to come and share some 
extremely important firsthand information on the local level, 
the front lines, people getting to know the individuals who are 
selling the drugs. That is what I have seen as the most 
beneficial in helping people move away from drug activity.
    Mr. Hastert. Let me go back and ask you two individuals a 
followup question.
    If you go into a community and you know that community is 
going to be tough on gangs and drug dealers, can you overcome 
that as a gang leader, a recruiter, or would you stay out of 
that territory?
    Derrick. That depends. You probably would try it and see 
what happens, and if you had a negative reaction, you would 
probably take what you had and move to the next town.
    Mr. Hastert. Jerome.
    Jerome. I agree with the same thing. It is tough to crack.
    Mr. Hastert. Both of you gentlemen are still in this 
community. Now you are working with the youth, certainly in 
different ways--you in a faith-based organization and you talk 
about talking with kids and working with kids. Both of you are 
former athletes, and I am sure you both have keys into certain 
groups of people.
    I coached for 16 years, so I understand the ability to do 
that.
    What is the best message that you have for kids today, 
either to turn their life around or stay away from it?
    Derrick.
    Derrick. You said the best message?
    Mr. Hastert. Yes. How are you going to persuade a kid not 
to get into drugs?
    Derrick. First, I think you tell them, you know, you don't 
need to be involved with drugs. I think you have to develop a 
relationship where they believe in you, where they have faith 
in you, and you have done something that they see that they can 
really trust you. And I think that comes from the love that you 
have for those individuals, and they feel the love you have for 
them; and then they are more apt to listen and do the things 
you say.
    Because you can talk all day, but if they feel like you are 
not in their corner, it doesn't matter what you say. If they 
feel you are in their corner, if this person is saying 
something that helps me, that makes a difference, because I've 
picked up young guys at 3 or 4 a.m., and taken them home, you 
know, 14- and 15-year-olds and waited until they went into 
their home. And when they see me, like a lot of them might have 
their hat banging from one side or the other, you know, 
representing a gang; and if they see me, they turn their hats 
straight and say, how are you doing, Mr. Smith, how are you 
doing, Coach Smith, and that shows me the respect they have for 
me as an individual.
    And what I have been saying to them is hitting home because 
they know what they are doing wrong and they know, in my sight, 
they can't do what they want to do. This way, it tends to make 
them say--you know, if you see a drug dealer, and you say, he 
has a car, he has all this, he has it made; but here is Mr. 
Smith doing all this in the community, and he seems to have it 
made, too, and this is somebody I would rather be than a drug 
dealer.
    Mr. Hastert. Jerome, can you enlighten us a little bit in 
that area?
    Jerome. The best thing I can see is each individual to take 
light of himself. The best thing I can do to help a kid is to 
change myself; if I get myself together, and a kid sees I was 
doing this and now I am making an attempt to change or 
straighten my life out, because you can't look back.
    So the best thing I can do is, get myself together, and the 
kids see that I am going in the right direction, obviously the 
ones that will look up to me, that still do look up to me, when 
I was in those activities, look at me in a different light, and 
they like to take the same road that I am taking. So my thing 
is that each individual makes a change within themself, makes a 
positive change within themself, and the people that are around 
you all the time will feed off of that.
    I think the young kids that look up to me or like to hang 
around me, because of what position I had when I was banging, 
will see now I am doing something positive, that now they can 
do the same thing, and that is to lead by example.
    Mr. Hastert. Congressman Manzullo.
    Mr. Manzullo. What turned your life around?
    Derrick. It was a spiritual enlightenment. A lot of guys 
ask, did you go to rehab and do this and do that; and I say, 
no, I didn't, because I had both parents at home, and I was 
raised, and it was church every Sunday and, you know, different 
things like that, of which I kind of fell off.
    But I was at a drug house, and they called it a shooting 
gallery because at that time I was shooting heroin; and when I 
was--I was high on drugs at the time, and I had this, it was 
like a dream where I was high, and it was like I saw this lady, 
it was something by a bed, and I was walking through a cloud 
and when I got through the cloud, I looked down and the person 
looked up and it was a woman, like she was praying by a bed, or 
kneeling by a bed. And when she looked up, she smiled, and it 
was my mother, and through that, it seemed like everything 
started coming to me. I saw my grandmother and I saw everybody 
who really cared about me at that time, and when I came out and 
opened my eyes, I wasn't even high anymore; and when I got up, 
I was with three or four other guys, and I told them I had to 
go.
    So I ran all the way home, like 12 blocks back home, and I 
told my mom, I feel I have to go back to DeKalb, because I had 
a partner in DeKalb. I said that is the only way I can save 
myself. So she gave me money, put me on the bus, sent me to 
DeKalb.
    My partner picked me up, and for 3 days I was cold turkey, 
and he would sit there and read the Bible to me, because I was 
telling him I have to go back, I was sick, and he kept saying, 
just stay down, just lie down. And for 3 days he read the Bible 
to me, and when I woke up, I wasn't high any more, my stomach 
wasn't hurting any more and from that time on, I made a pledge 
to God. I said, if you can keep me straight like this, I 
guarantee I will never put another needle in my arm, and I 
haven't. So for him to spare my life like that, I give my life 
to the young people, especially this community.
    Mr. Manzullo. Three days of pretty effective treatment, I 
would say.
    Mr. Manzullo. Connie, what gives young people hope today?
    Connie. I like seeing other people that have gone through 
the drugs, how they changed their life around and stuff. But 
like there are not that many out there. I mean, there are 
people out there like these guys that are trying to help the 
kids, but then there are a lot of people that don't. So there 
is not much out there that does give the kids hope.
    Mr. Manzullo. There was an interesting article that 
appeared in the Washington Post, April 19, 1993, by Sarah 
Blumenthal, writing about the death of Kurt Cobain, the rock 
star, who at first tried to overdose and then he killed himself 
with a shotgun a week later; and she was interviewing two young 
people, and one of the people she interviewed was a young man 
working two jobs who said, every day I wake up angry, life has 
no core. As I read that article--and I have talked to a lot of 
young people who come by my office, and I ask them the same 
question, what gives them hope; because if you have no hope, 
there is no vision and there is no reason for living.
    Let me go back to the movies. Let me give some names here; 
we have a little congressional immunity: ``Trainspotting'' 
glamorized heroin; ``Big City, Bright Lights,'' glamorized 
cocaine. Many of the John Belushi movies, until he died by a 
cocaine overdose himself, and a lot of the Richard Pryor 
movies, until he was nearly killed when he was freebasing 
cocaine--when the movies come out, do you do anything about it? 
Do you put out a press release?
    I know the risk is that more kids will go and see them, so 
you really don't know what to do in that circumstance, do you?
    Mr. Povlsen. I think we, as a community, have to be more 
active; and there are groups out there that do do that, that do 
write letters, that do try to have TV ratings, et cetera. But I 
think what we need to do from a personal use is look at those, 
not support those, not let our children go to those, do what we 
can at a local level to make sure we in a capitalistic society 
don't support those kind of things. It is back to the 
individual responsibility.
    Mr. Manzullo. It is--but it is not working, is it?
    Mr. Povlsen. That is because--I mean, if we were to go 
around this room and look at our own individual commitments, 
and really get down to the bottom line, we may not see what we 
want to see or need to see for this community and this Nation 
to turn around. I think what we are hearing here are things 
that are very important. I think the individual work with the 
individual youth to turn around individual people is vital, and 
I do that in some of the work I do in the student-to-student 
program through the high school here. And I have to say that if 
I had a choice between the work I do with the individuals or 
the work I do with the community, the work I do with the 
individuals is more rewarding because I can see a kid who was 
an eighth grader, who was drunk on his front porch while he was 
baby-sitting, turn around with a college degree now and come 
back and say, Kris, if it wasn't for your program, I wouldn't 
be where I am.
    But at the same time, we need to also look at the bigger 
community issues and that is writing our Congressmen, that is 
doing what we can to get people to not go to the movies, 
mentoring our neighborhood youth, whatever it is in our own 
local communities.
    Mr. Hastert. Thanks, Don.
    One issue, Derrick, that you brought out, in your view, 
that drugs were less potent in the 1980's and got more potent 
in the 1990's--and I want to kind of make a general statement 
on this thing. In our work, we found--to lead into the next 
panel--this is a balanced effort and I think there are six 
things this country has to do, six energies that we have to 
expend ourselves in.
    In the 1990's, or 1980's, we did a little tougher job on 
stopping drugs coming in. We gave the Coast Guard access and 
interdiction access to stop drugs; and during that period of 
time, drugs weren't as potent, that is what the statistics tell 
us, and we cut a lot of that. The Drug Czar's office was cut 
back in 1992, almost 500 people to 25 people, and we lost a lot 
of the effort, and drugs became a little bit of a more 
emphasized problem.
    But I think there are six things, and we need to do this. 
It starts at the White House and in Congress and right down the 
line, and we need to work together; and I think we are trying 
to do that--the Drug Czar or whoever you might be.
    I think, first of all, you need to be in the communities, 
and that is why the Drug Free Community Act was an important 
piece. People have to start at home, working together.
    The other area is, you have to treat the people who fell 
into the water and they are drowning. The treatment programs 
have to be there, and we need to find out what the treatment 
programs, No. 2, work best, and then try to emulate those. We 
find out a lot of the treatment programs have 80 percent 
recidivism; that is not good, and I am not sure that is money 
wisely spent. How do you best focus those funds?
    The third area--and the next panel we are going to have, 
they put people in a different line, fighting this war, and 
that is law enforcement. A lot of people spend days in and days 
out working on this and they are dedicated to doing that. We 
need to make sure the right resources are there to stop the 
stuff in our communities and to stop it from getting into our 
communities. And it is not just the local police or county 
police or the State police; it is also the DEA and the other 
people. We find that sometimes intelligence, finding out where 
the stuff comes from, who is doing it, and 90 percent of the 
success in being able to stop in the next two areas I am 
talking about, comes from intelligence, being able to find out 
where this stuff is.
    The other area is interdiction. We can do a better job on 
the Federal side. We have--on the borders of Texas, we have the 
DEA, the INS, we have Immigration, we have Customs, we have the 
Border Patrol, all these independent agencies out there, but 
not very much coordination. If you are a Customs agent, you can 
bid for a job and be on the border for 20 years of your career, 
have your brother-in-law come across the border, and it just 
opens the way for corruption; and we need to do a better job in 
our own government in making sure we stop the stuff from coming 
into our country.
    And the same with the Coast Guard. The Coast Guard can't do 
everything on a low budget. We need to make sure they have the 
ability. There are 10,000 boats, as we speak, moving through 
the eastern and western Caribbean and coming up the Pacific, 
many of them with significant cargoes of drugs. They need to do 
a better job, and we need to make sure that we coordinate.
    So the other, fifth area is the countries themselves. We 
found that the guy who was so remote and so far away from us 
that we would probably never read about him, the guy who was 
the President of Peru, a guy named Fujimori, happened to be in 
the headlines because of the embassy being taken over in Lima, 
but he has a policy in Peru that is working, a shoot-down 
policy. And people that loaded up planes, about 70 planes 2 
years ago, a month, they are loaded up with 100 or 200 kilos of 
cocaine--and it is what people could afford to buy--to load the 
planes up and at that time you could buy a kilo of cocaine in 
the Upper Huallaga Valley in Peru for about $400 a kilo. You 
move it to Colombia, you remanufacture it into crack or 
cocaine, and there it is worth about $2,000 a kilo, and then 
you move that up to Mexico, and Mexico, across the border into 
this country and it can be worth $20- to $30,000 a kilo, so 
there is added value all the way you go through it.
    But what they did in the shoot-down policy, they started 
tracking the planes, doing the radar and finding out what 
planes, through intelligence, were carrying cocaine up, and the 
coca paste. When they started to shoot those planes down, they 
give them a warning, they ask them to land and if they didn't 
land, they tried evasive tactics.
    It was a good feeling. They were doing something wrong, and 
they shot them down; they shot down 43 planes. Today there are 
7 planes a month going up instead of 70 planes.
    The cost of a pilot was $25,000, now it is $250,000; people 
won't do it unless they get a lot of money, and instead of 
flying up, they are flying through Brazil and all over. So what 
has happened is the supply of raw coca paste in Peru has gone 
up because they can't get it out of the place. The price of 
coca paste has gone from $400 a kilo to less than $100 a kilo.
    The farmers who grow this stuff, they strip the leaves and 
put it through a process and get a paste; it is a messy 
business. They cut the stuff and they separate it and it is the 
messiest stuff you ever saw; and to think people actually use 
it. Beyond that, they have the stuff sitting there, they can't 
sell it, so farmers are walking away from growing it.
    Last year they cut the ability to grow it 19 percent, this 
year they think they are going to cut it down 25 percent, and 
that is where 70 percent of where all our drugs come from.
    So, there are a lot of coordinating things we have to be 
able to do to stop drugs in this country but I think one of the 
most important things is something we never talked about; it is 
the way we launder the money. Some drugs come up from Colombia 
actually in cargo containers. You can't stuff the money that 
you get on the street corners--the $5, $10, $20, $50 bills, 
$100 bills--back in the containers the drugs come in, the 
volume of the money is for more than the buying of the drugs, 
and that is how they get the money back to Colombia. If you 
can't get the money back to Colombia, if you can't do it 
through wires or the money laundering or the bank systems, 
there is no impetus for the guys to grow it, to smuggle it, to 
sell it, refine it.
    So all those things work together, and it is a commitment 
from some of us in Congress, most of us in Congress, to stop it 
and make sure all six things are working together. But the most 
important is back at home, the demand site; and we have a big, 
big job.
    And Mr. Povlsen, you talked about the community 
responsibility. It is huge, and it is a responsibility that a 
lot of us like to look the other way and not think about and 
not take that on; and I appreciate everybody being here today, 
and some of you have been through very personal tragedies and 
some have been in situations where you turned your life around 
and some have been working at this thing for a long time. We 
appreciate all of you being here today and your contribution to 
this, and we look forward to the next panel.
    Mr. Hastert. At this time, I would like to introduce our 
second panel. First of all, John Nakonechny--I think that is 
pretty close to how you pronounce your name--is a prevention 
and wellness coordinator for the DeKalb School District; 
Michael Haines is coordinator of health enhancement services 
here at Northern Illinois University; Tim Johnson is the 
current DeKalb States attorney; Dick Randall is the sheriff for 
Kendall County, and has been involved very much in Operation 
North Star; and Bob Miller is the founder of the Just Say No to 
Drugs parade in Dixon, IL.
    Here is a situation where there is a community--Dixon is 
west of here, about 40 miles or so--where a community and a 
fellow in that community just said, it is time to do something, 
and they have a Just Say No parade. We need to get the idea on 
how that works and what effect that has.
    I think everybody is here, except Mr. Miller, at the table. 
Again, I am going to ask that you stand and raise your right 
hands.
    [Witnesses sworn.]
    Let the record show the witnesses answered in the 
affirmative.
    Mr. Nakonechny. Is that right?
    Mr. Nakonechny. Just say Nak.
    Mr. Hastert. Nak, OK.
    Mr. Nakonechny. I am not going to read anything.
    Mr. Hastert. Let me say, if you have a written statement, 
we will just provide it in the record and we look forward to 
your testimony.

    STATEMENTS OF JOHN NAKONECHNY, PREVENTION AND WELLNESS 
COORDINATOR, DeKALB COMMUNITY UNIT SCHOOL DISTRICT 428; MICHAEL 
 HAINES, COORDINATOR OF HEALTH ENHANCEMENT SERVICES, NORTHERN 
   ILLINOIS UNIVERSITY; TIM JOHNSON, DeKALB STATES ATTORNEY; 
   RICHARD A. RANDALL, SHERIFF, KENDALL COUNTY, IL; AND BOB 
      MILLER, JUST SAY NO TO DRUGS PARADE, LEE COUNTY, IL

    Mr. Nakonechny. I will just summarize ways as a crossover 
from what has been said previously by Mr. Povlsen and others, 
and Mike Coghlan, but essentially where we stand in DeKalb 
schools is the old, hackneyed cliche of an ounce of prevention 
is worth a pound of cure, which we have been saying here for 
the most part.
    Let me get into the substance of what we are doing in the 
DeKalb schools trying to combat the violence, drugs and 
alcohol. We do it on four fronts: schools of students, staff 
development, parents, and community. Within the schools of 
students, we have, since about 1986, when we started a drug and 
alcohol prevention program, we have adopted a curriculum, K 
through 12, which is very, very important.
    Recently, you heard some attacks on D.A.R.E., for instance, 
that the long-term effects and longevity of D.A.R.E. is not 
there. That is no indictment of the D.A.R.E. program because it 
is probably--it is a very good program; I know what it entails, 
but that is why you have a K-12 program, to followup and 
support D.A.R.E. and support all the other programs.
    One of the messages I hear over and over and over again is, 
we heard about the advertising industry and everything else, 
one thing we try to emphasize very heavily is this war, if you 
can call it that, against substance abuse is something that has 
to be repeated over and over and over. I don't think there is a 
person in this room, perhaps, unless you have an IQ of 200, 
gets something the first time. It is a war that goes on and on 
and has to be repeated over; and in essence that is what our 
curriculum is doing, year in and year out.
    Hopefully, each teacher is teaching the curriculum, K 
through 12. Our curriculum puts emphasis on self-esteem, on 
knowledge and refusal skills. One of the things we know now is 
Just Say No doesn't work; you have to teach kids how to say no 
with refusal skills.
    We also publish a newsletter as often as we can with the 
financial resources that we have, and that continuously 
inflicts knowledge on students, K through 12, as well as their 
parents.
    We provide activities for kids, such as the National Red 
Ribbon Week. We provide DUI Day to talk about the effects of 
drinking and driving, for instance, as well as we perform 
skits; we actually have kids in our theater group go to fourth 
graders. And again, as we talked about before, we actually 
attack tobacco at that level because we know it is down in the 
fourth grade when kids are experimenting, especially with 
tobacco.
    We run the I-Say survey. I have a copy here if somebody 
would like it; I brought one or two copies with me. You are 
more than welcome to look at it. We only use that survey as a 
barometer, as a gauge, to tell us where we are going and what 
is happening. We don't use it in each statistic. It seems to 
match with the previous person who said that perhaps she knew 
300 kids using marijuana; that is just about right, if it is 40 
percent, 40 percent of 700 kids in the survey is 280 kids, so 
that reflects fairly well of what is happening.
    As far as the schools go, with the limited time we have, we 
have a Discipline Committee. In the last 5 or 6 years we have 
really tightened up procedures and policies against drugs and 
alcohol, as well as touching on dress code a little bit, in 
terms of gang activities; and I would say, in essence, it is a 
``tough love'' approach to the entire process, as well as a 
zero tolerance.
    Finally, we have also--within our schools, we have 
tightened up our security. Some schools even have cameras; we 
do not have cameras. We do have a liaison police officer now in 
conjunction with the DeKalb Police Department, who spends time 
at our middle schools and our high school--and it is a sad day, 
but it is here--and we do have a police officer at the school, 
as well as security aids and a person who takes care of--well, 
just in essence, security matters; and we try to keep a good 
tab of what goes on in the parking lot.
    In terms of staff development, we, I, my office offers a 
lot of workshops for teachers, and we send people out and 
wherever we can find something on peer mediation, conflict 
resolution, drugs and alcohol, gang activity seminars, we try 
to encourage people to go.
    One of the things we try very hard to do is to have 
teachers understand this problem is never going to be solved 
unless we teach it across the curriculum. The P.E. teacher 
can't do it alone, the health teacher can't do it alone; it has 
to be the English teacher, the math teacher, the history 
teacher, the wrestling coach, right across the whole spectrum 
of the school building, K through 12.
    As far as parents are concerned, we work very hard to 
provide information, as well as a monthly newsletter to 
parents. Principals are more than willing to put it as part of 
their newsletter to parents. We also try to invite parents into 
our school system. That is another very difficult thing to do, 
getting parents into schools is a very tough situation; but 
they do serve on such things as our district-wide Discipline 
Committee, which I serve on, they serve on what we call a CAC, 
Citizens Action Committee, the advisory committee that deals 
with the schools, and they look at a broad spectrum of things 
from gifted programs, to drugs and alcohol, to violence and 
gang activity, and we openly encourage parents with Drug Free 
money and things like that; if they so wish to participate in 
workshops that we hold, they are more than welcome to do that.
    Finally, within the community, I have worked very closely 
with Kris Povlsen, the other 10 schools in this county, and 
Mike Coghlan, when he was States Attorney, with DCP/SAFE, 
DeKalb County Partnership for a Substance Abuse Free 
Environment--it is the coalition you were talking about 
earlier--and we have even gone to the extent we now have 
student representation on DCP/SAFE. It has been very 
productive.
    We have a long way to go probably.
    Yes, you can read about somebody rolling a joint, in the 
Chronicle, in the classroom but you can also roll a joint 
during a church service, too, or a court of law; those things 
do happen. My only problem with that is, it gets highlighted as 
if to seem we are not doing anything, and that is just not 
true.
    One thing we try to do over and over, whether you read the 
survey--and I know you don't have the entire survey--whether 
you read about it or hear about our activities, we emphasized, 
just recently, in the last 2 or 3 years, that not all kids are 
doing that. When you say 40 percent of the kids are involved in 
marijuana, if you break that down, you find out that out of 
that 40 percent, that is 100 kids, 12 are experimenting with it 
for the first or second time; and it is probably about 26 
percent of high school kids using it on a weekend basis, 
perhaps on a monthly basis. You go to our full 6-12 survey on 
that, you will find out it breaks down to about 15 percent.
    We can always improve, and so I will leave it at that.
    I would just like to say one other thing. I have been in 
the game for 29 years now, being a teacher, and I have been at 
this job for about 6 years. I still teach in the mornings--
American history, advanced American history, the history of 
Vietnam--and over the years, I have to tell you, you hear this 
question, what is wrong with kids today? I don't think there is 
anything wrong with kids today. I think 97 percent of the 
kids--and that is an arbitrary number--in 1972 were good kids; 
and I still think 97 percent, 95 percent of the kids in 1997 
are really good kids.
    What we have is a problem with about 3 or 4 percent who are 
now a criminal element. Back then it was bubble gum, swearing, 
cutting class, a few other things; those things still happen, 
but we have another element that I am not so sure we are well 
equipped to deal with, and that seems to be the problem.
    Mr. Hastert. Thank you very much.
    Mr. Haines, you are doing the same thing only at a 
different age level. So why don't you tell us what we are doing 
here.
    Mr. Haines. Before I start, if I can get someone to get the 
overhead. I have a couple overheads that illustrate the point.
    Mr. Hastert. Do you want to go ahead and let them set that 
up?
    Mr. Haines. I could make some of the remarks while they are 
setting that up.
    I have been working in the substance abuse field since 
1970; and I am a certified supervisor of addiction counselors, 
besides my current position at the university coordinating 
health enhancement services.
    Mr. Hastert. Would you elaborate on that? Health 
enhancement services, what is that, exactly?
    Mr. Haines. Health enhancement services is that portion of 
the university health service who are part of student services 
on campus which is charged with the responsibility to reduce 
risk for students for injury, disease, accident, problems; and, 
of course, then alcohol or other drugs are a part of that 
issue, particularly alcohol, because it has--plays a major role 
in unintentional injuries for college students.
    What you have heard today, and you will probably hear more 
of, is a lot of information which is documenting the nature of 
the drug problem and how serious it is and how it has caused 
tragedies for individuals in our community. Notwithstanding 
those, I am here to talk more about the drug solution than the 
drug problem, with some of the successes that we have had over 
the last 7 years, 8 years here on our campus.
    We have tried, and it has been my experience over the 27 
years--I have been particularly pleased with the effects we 
have gotten because of the trials we have had in trying to have 
a measurable impact on the behaviors of populations of young 
people when it comes to alcohol or other drugs.
    In the last 7 years, we have reduced the amount of alcohol 
abuse on campus by 35 percent, reduced harmful alcohol-related 
physical injury to self by 31 percent and physical injury to 
others by 54 percent. That is at the same time where it hits 
the background nationally, where alcohol-related harm to 
college students has remained unchanged and very difficult to 
reach.
    We have done that through a rather unique method that I 
think could work in other settings with other populations and 
within communities, and it addresses the social norms we heard 
about earlier in some of the testimony. I think you asked a 
question directly, how do you go about charging norms? That is 
exactly what we went about doing.
    I will go over to the overhead. See overhead No. 1. I don't 
know if you can all see this or not, but this describes the 
phenomenon seen on college campuses nationwide. Every campus 
that was surveyed for this type of information found that 
college students routinely and regularly perceived the use of 
alcohol and other drugs to be far greater than the actual use.
    The researchers who conducted this work and presented it at 
the first National Drug Abuse Conference for the Fund for the 
Improvement of Postsecondary Education in Washington, back in 
1987, 1988, hypothesized that if you changed this perception, 
you could actually change the behavior. Where they were coming 
from was the idea that young people, college students, respond 
to imaginary peer pressure. If they think everybody is doing 
it, then they feel pressure to do it as well to fit in.
    Mr. Hastert. It is what is cool.
    Mr. Haines. It is what is cool.
    The comments and questions were asked: What types of 
movies--I think ``Animal House'' did more to set the stage, 
expectation and perceived use of alcohol on college campuses 
than any other movie could have. I don't know if you are 
familiar with ``Animal House,'' but it sets up the idea that 
everybody on campus is getting drunk every weekend, and when 
they get drunk they do these antics and so on.
    What we found on our campus was that the perception of 
alcohol use was almost actually double the use of alcohol, and 
they found that on campuses relative to other drugs as well. 
Researchers at Wake Forest University did similar studies with 
eighth graders and high school students and found the same 
information.
    They went further and tested different prevention methods 
and found that prevention methods, which changed the perception 
of the norm within the peer group, actually had the greatest 
influence in reducing use of marijuana, tobacco or alcohol by 
junior high school and high school students. They found that 
that perception of the social norm was a more powerful 
predictor than even the availability of the drug itself.
    So the student could be offered the drug and you can more 
accurately predict whether they would use it or not based on 
what their perception of the norm was. If they thought 
everybody like themselves were doing it, then they chose the 
drug. If they didn't think that was the case, they refused it 
more so.
    Essentially, our challenge was how do we change the 
perception that alcohol abuse is the norm on the college campus 
of 20,000 students, with one full-time position to do that; and 
the sheer economies of scale said we had to do that through 
media; and we used media rather extensively.
    What you see in much of the media is this type of headline. 
See overhead No. 2. That was run in the Wall Street Journal in 
December 1994 in response to the research conducted by Dr. 
Henry Wechsler at the Harvard School of Public Health. The 
research data that Wechsler produced about binge drinking 
behavior on college campuses could have produced this headline 
just as easily. See overhead No. 3. Same data, same study, but 
we have a major difference in the perception of what is the 
norm on a college campus from this headline--everybody is doing 
it, nearly everybody is binging--to this headline, which says, 
moderation is the norm and harm is relatively rare on college 
campuses related to alcohol use.
    What we did to try to change the norms on our campus. The 
Harvard study also pointed out this information. Again, in the 
paper, what you saw was the 44 percent who binge drank, you saw 
the 4 percent who got into trouble with the police, the 9 
percent that got hurt or injured, the 9 percent who damaged 
property and so on.
    As a society we overfocus on the deviant; and as we 
overfocus on the deviant, we unintentionally give the idea to 
our young people in the community that deviance is more normal 
than it really is. What we are trying to do is correct that 
misperception and we did that through, as I said, media; and 
that media was mostly through our campus paper because our 
campus paper is read by about 75 percent of our students. We 
did that by producing very visible ads that addressed the norm 
issue straight on. See overhead No. 4.
    We didn't deny the fact that DUI is a problem and a serious 
one, but we tried to make it clear that DUI is relatively rare. 
It is not the norm among college students on this campus or any 
other campus in the United States. We support and identify the 
healthy protective behaviors that are resident in the community 
and then amplify them by feeding them back in order to get more 
of them.
    It is just like when I pay attention to my dog for coming 
back to me with praise, rather than beating it when it doesn't 
return, which just teaches it to stay away. I am trying to 
attend to the population who are doing the behavior well, 
amplify those protective rituals in the population and feeding 
it back to them.
    These are some more of the ads. See overhead No.'s 5, 6, 
and 7. Most college students don't participate in alcohol-
related harm. I like to call it the big lie that everybody is 
doing it and everybody is getting hurt. Because on our campus--
and I think it is true from all the national data I have seen--
the majority of students are not binge drinkers, the majority 
of students do not use marijuana, the majority by far do not 
use LSD or cocaine; and we ignore that majority quite often. We 
don't pay attention to what the students who don't use and have 
the opportunity to use do in order to get that usage to be 
reduced. Ninety-seven percent of our students agreed with the 
statement that an occasional drunk which interferes with 
academics or other responsibilities is OK. Only 3 percent felt 
that was something that they agreed with.
    Mr. Hastert. You mean it is not OK.
    Mr. Haines. It is not OK, right. Yes, strike that one.
    And most of the students don't cause harm to self or 
others. As you can see, 9 percent and 20 percent. This is the 
result of the efforts we have been conducting.
    The very first year of the study, we conducted what would 
be called a traditional campaign, where we taught students that 
it's OK not to drink, that here are responsible ways to use, 
and these are the negative consequences which will occur to you 
if you use heavily. At the end of the first year, perceptions 
didn't change and use actually went up slightly--heavy use, 
binge use. See overhead No. 8.
    Once we started the normative campaign, the campaign to 
change social norms, we had a steady decline to where today it 
is 27 percent. Nationally, it's about 40 percent on college 
campuses.
    As I said earlier, I think this method holds promise. It 
holds promise not only for college students but I think holds 
promise for high-school-age populations and, as has been 
commented on earlier, for the adults in the community. I think 
they also have the misperception that everybody is doing it and 
that they, too, need to be reminded that the protective healthy 
norms of the community are widespread, that it is normal to be 
healthy.
    I think I should conclude with just a couple comments that 
I made in my written testimony of the implications for this 
method.
    The powerful influence of perception of social norms on 
personal drug-taking behavior is enormous. The success of this 
drug abuse prevention effort has many implications: One, mass 
media efforts which highlight healthy and protective norms may 
be very cost-effective ways to improve drug behavior within 
full communities as well as special target populations.
    An effort which identifies and promotes healthy norms 
already practiced by neighborhoods, communities and social 
groups is welcomed by those very groups. It is good news. It is 
good politics. It does not bash the community to eliminate the 
problem, sort of the burning the house to cook the pig issue. 
It is a community-government partnership, instead of an 
adversarial nature that we find so often. Instead of the us 
against them, we are working together. It is consistent with 
community policing theories, self-help efforts and returning 
control to people.
    Thank you for the opportunity to testify.
    Mr. Hastert. We will come back with questions.
    [The prepared statement of Mr. Haines follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Mr. Tim Johnson, States attorney for DeKalb 
County.
    Mr. Johnson. Thank you, Congressman Hastert and Congressman 
Manzullo. I appreciate the opportunity to speak and for you 
being here.
    I think it is important for the record to have a little bit 
of a reflection as to the makeup of DeKalb County. DeKalb 
County is composed primarily of small cities, villages with 
populations of less than 12,000, with the only exception being 
the city of DeKalb.
    The city of DeKalb, of course, has a population of roughly 
38,000 people, which represents almost one-half of the county's 
population. Of course, DeKalb is also home to Northern Illinois 
University. Geographically, the county is large and rectangular 
in shape.
    Like all communities, DeKalb County continues to see the 
presence of drugs. The most typical drugs that we see in DeKalb 
County are marijuana and cocaine. Recently, however, we have 
seen in DeKalb County arrests of individuals who have been 
selling mushrooms, LSD and opium. The presence of these and 
other drugs continues to be a threat to the young people of our 
community.
    Mr. Hastert. Is mushroom the name of the drug?
    Mr. Manzullo. It is psilocybin.
    Mr. Johnson. That is exactly right. And, of course, we 
continue to have the use of alcohol and tobacco products by our 
young people.
    Although I don't think exact statistics are available, 
there are certain trends that are clear in DeKalb County. One-
quarter of felony arrests are directly related to drugs. Others 
are indirectly related and are, therefore, hard to quantify; 
but they involve burglary, forgery, deceptive practices in 
which individuals who have a drug habit are committing those 
crimes in an effort to feed that habit. Indeed, other felonies 
are committed when these individuals are highly intoxicated. 
The net result is, very conservatively, over one-half of 
felonies committed in DeKalb County involve drug or alcohol 
usage and probably much higher than that.
    The fact drugs are available in rural communities cannot be 
disputed. The effect on our young people is more difficult to 
ascertain. I believe there are many reasons why this is so.
    First, teens are not likely to be totally honest with 
authority figures when discussing drugs and alcohol. There is a 
code of silence that exists with young people. They don't like 
to tell on each other. However, I believe any teen can tell 
you, if you want to buy drugs, where do you go to buy those 
drugs.
    Second, some officials have an interest in denying problems 
do, in fact, exist. They may choose to handle certain problems 
in-house, choosing not to involve the police. Other officials 
can underreport the extent of the drug activity in their school 
or turn a blind eye to the potential problems.
    Another problem that exists, I believe, is the method and 
criteria for reporting what types of activities are occurring. 
For example, some communities may choose to do station 
adjustments. Other communities may, in fact, choose to direct 
that individual directly to court.
    Finally, I think in any community there are always 
variables that include finances, work force available and the 
coordination and cooperation of the services that are 
available.
    I believe that when you consider the above, it seems 
relatively clear that to adequately address the drug and 
alcohol problem facing our youth we must include several 
things. First, the approach must have a prevention aspect. We 
must continue to be proactive, and I believe this requires the 
support of the entire community. I believe some of the 
essential players in this effort must come from the school 
systems, police agencies, prosecutor's office and social 
service agencies as well as the teenagers themselves.
    I think, too often, we leave the teens out when discussing 
these problems. For example, as you have heard and as you have 
heard the prior speaker, we have groups such as DCP/SAFE, which 
is, again, an active group coordinating prevention services on 
a community basis.
    I think cooperation and communication is essential to 
handle this problem. Standards must be used for schools and 
police agencies to report drug and alcohol-related incidents 
and arrests so we can accurately analyze this problem.
    Second, from the States attorneys' perspective, we must 
continue to aggressively prosecute those who choose to violate 
the law and provide drugs to our young people. Every effort 
must be made to provide the law enforcement officials the funds 
they need to protect society and especially our young children. 
Individuals who sell drugs and individuals who sell drugs to 
teenagers or at school need to understand their conduct will 
not be tolerated and they will be punished accordingly.
    In conclusion, teens need to be educated about the negative 
effects of drug and alcohol usage; and I think the testimony 
you heard today--they need to understand it is not necessarily 
the norm. Their perception may be different than reality. Those 
teens that are using drugs need to be referred to the 
appropriate agency to deal with their problems. The individuals 
that prey on our youth or refuse the offers of help must 
understand, if they violate the law, they will be aggressively 
prosecuted.
    Thank you very much.
    Mr. Hastert. Thank you.
    [The prepared statement of Mr. Johnson follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Also with us from a neighboring county, just 
to the south--it used to be known as a rural county. I am not 
sure it is still. It is half rural, I guess, Kendall County. 
Sheriff Randall is not only the sheriff, but he is involved 
with Operation North Star, and you might comment a little on 
your local issue and the bigger picture.
    Mr. Randall. Thank you, Congressman Hastert and Congressman 
Manzullo. I appreciate all of the efforts that all of the 
people are making today and that you would come out to our 
rural area.
    As sheriff for the past 11 years in Kendall County and a 
law enforcement officer for over 29 years in Illinois, I have 
many concerns about illegal drugs, gangs and violence in our 
area.
    Being the sheriff, these concerns take on multi-levels of 
approaches, not only enforcement but incarceration, 
investigation and officer of the courts, along with prevention/
education and developing multi-jurisdictional task forces in 
utilizing as many resources as possible to curb that activity 
in our area. Even though we are involved and proactive in many 
of these areas, I have concerns of many other agencies doing or 
attempting duplication of many of these same efforts and lack 
of coordination in the more local areas, which you have alluded 
to.
    In the past several years, cooperation of all agencies 
across the board in providing services has improved greatly, 
but the coordination of these services needs additional help, I 
believe.
    With the broad brush I have painted, I would like to focus 
on a few areas to be explored for future planning and actions 
that could be taken.
    Education/prevention: On a county-wide or possibly a 
region-wide effort, developing resource information packets of 
services available and ongoing projects and programs of the 
region. This information needs updating minimally every 6 
months. There are many positive, localized programs that can 
provide some very important information or direction to others 
attempting to resolve or solve an issue of need.
    This is not to say that each area or program used uses a 
cookie-cutter approach, but it can afford individuals or agency 
ideas and knowledge on a broader base, hopefully for better 
results. The wheel has been invented. Each group or individual 
can design their own hubcap for their particular local need.
    Many efforts are available, but it takes people to put them 
in motion by providing as much information and direction that 
could be an asset in dealing successfully in protecting and 
leading our communities to a safer environment. The Kendall 
County Sheriff's Office of COPS, the Community Oriented Police 
Section, are indeed starting that process but only in localized 
neighborhoods and townships, not in total concert with the 
coordination of other jurisdictions or resources.
    No. 2, investigation/enforcement. Working with multi-agency 
jurisdictions has been a very positive and successful effort; 
but, again, broader intelligence and dissemination networking 
needs to be developed, specifically in the more rural areas, a 
faster, more direct process of information to gain a better 
understanding of the broad scope of people, places, migrations, 
trends, routes, et cetera, of gang and illegal drug activity, 
brought down to the smaller agencies.
    Again, I believe there is a tremendous amount of 
intelligence information, and we need to capture it from 
smaller jurisdictions. A method or process needs to be 
developed to gain this information and, at the same time, 
recognize the smaller agencies for providing positive results 
without jeopardizing long-term cases. These cases are without a 
doubt more difficult. In some instances, where there are fewer 
people, anonymity is next to impossible, along with the small 
numbers of incidences.
    Again, education and knowledge of the bigger picture, along 
with total community involvement, will support positive 
resolutions to reduce and treat unacceptable behavior firmly. 
We law enforcement providers need to foster remedies, 
disseminate accurate information, work with other community 
service providers and listen to the community.
    No. 3, domestic violence. I know this is stepping outside 
the circle of your immediate concerns, but I think we need to 
focus on this area as a major contributor to drug abuse, gang 
involvement and violence. In my 29 years of experience, I 
believe this is a catalyst of the dilemma, in escaping reality, 
needing alternative recognition or striking out in frustration 
and anger. This is totally unacceptable behavior, and it is 
totally out of control, which is skyrocketing the antisocial 
behavior of drugs, gangs and violence.
    If resources can be coordinated at all levels, not only the 
criminal justice and social services, but all levels of our 
communities, we will begin to resolve this dilemma. This may be 
an awesome task, but in order to look to the future, you have 
to look to the past and identify the major factors and what are 
the contributors of this dilemma and attack it on many fronts. 
Education, prevention, sincere alternatives, in my opinion, 
will add to the stabilization of our communities and our 
country.
    Thank you very much.
    Mr. Hastert. Thank you, Sheriff.
    Mr. Hastert. Do you want to take just a minute and talk 
about Operation North Star? Because it is an interagency issue. 
Just in your own words.
    Mr. Randall. It is between Canada and the United States, 
about criminal activity on the border in both countries. It 
really focuses on the coordination. In fact, it has three Cs 
and an I--communication, coordination, cooperation and 
information--and that is exactly what we are doing today. We 
are fostering and trying to build that between both countries, 
our own government, Federal, State, local and county, to try to 
put this big picture together and work together and network 
positively.
    [The prepared statement of Mr. Randall follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Hastert. Mr. Miller, you represent Lee County, which is 
just to the west of here. What, Mr. Miller, you have done in 
Dixon, IL, is just kind of pull yourself up by your own 
bootstraps and get public awareness out of the parade. So why 
don't you enlighten us on your activities, please?
    Mr. Miller. I would thank you, Congressman Hastert and 
Congressman Manzullo, for having me here; and I am just a 
country boy.
    Mr. Hastert. We know all about country boys.
    Mr. Miller. I apologize. I do not have a written statement. 
Your office was on me a lot to try and get it, and I just never 
got it accomplished. But I do think I have a lot to tell you, 
and I will go through that.
    About 10 years ago--in fact, 10 years ago in January--I was 
watching the Bears-Miami football game; and at half time, they 
had a small parade where they had a dignitary and a few 
students marching, saying no to drugs; and I thought that is a 
real positive thing to be doing in a community. So I went to 
our City Council and our mayor. I asked them if Dixon would 
support me in this, if I could do this.
    They gave me permission to start, told me I should start 
with Police Chief Short and see what we could come up with. I 
went to Bob Short, and he was in favor of it. We put together a 
committee of Bob Short, the police chief, Kathy White, who was 
in the city counseling center, and Kirby Rogers, who was the 
dean of students at the Dixon High School and myself. The four 
of us put together a program for not just a parade but for a 
whole year program.
    In October--and we have mentioned before about the red 
ribbons--which is a red ribbon month, we pass out 5,000 red 
ribbons to our students in Lee County. We have somewhere around 
5,200 students in Lee County. We pass out a ribbon to each 
student so that they might be aware of the sacrifice this 
Federal agent had who died and then he is honored when we pass 
out these ribbons. So we do that, and we pay for that each 
October.
    During the year, we try to work with the schools with 
different say no to drugs programs. Someone like maybe the two 
athletes that were here, we would have them come to the schools 
and tell the story to the students, so the students would know 
that here are a couple young men who were messed up and found a 
new way of life. So this is another positive thing we try to 
bring to the students throughout the year.
    We have also attempted to educate the parents by having law 
enforcement agencies come in. We had one lieutenant, I 
remember, from North Carolina that came in and gave a program 
at our theater. I think we had 30 parents show up, and it was a 
cost for us, and it didn't work too well. But we feel this 
whole program we set up is an education for the parents and the 
students, and that is the only way it is going to work.
    Right after the first of the year, we send out to each 
school letters. They take the forms in these letters and give 
them to each student, and the students sign up for a free T-
shirt. We have the T-shirts for our parades.
    The first year of our parade, we had the just say no to 
drugs logo on the T-shirt and furnished these to every student 
that would march. This is our 10th year, and we had students 
design their own T-shirts. We had a first-place winner. She 
designed this shirt, and it was different this year than the 
other 9 years, so we wore her design.
    We try to keep young people realizing the community, the 
law enforcement part of the community, the clubs, the schools 
are all behind them in their decision to say no to drugs. We 
want to keep it positive. We wanted them, we felt from the 
beginning, to bond together as a group so when they went from 
third grade and fourth grade they could see other students who 
had marched in the parade with them and know here is somebody 
else who stood up to say no to drugs and has marched in this 
parade.
    In the spring--later in the spring, after we have put out 
the bids for the T-shirts, we get buttons, say no to drug 
buttons; and we have had them for all of 10 years. We pass them 
out early spring, so young people know we are still working 
with the program.
    This year the second-place winner in our contest designed 
this button. I think he was a fourth grader.
    The schools have all kinds of different programs, as I 
mentioned before, during the year. We culminate at the end of 
the year with a week-long program.
    We start out in the churches. We try to encourage our 
churches of Lee County to have a program within the church, 
whether it be a prayer time or a sermon or whatever, to 
encourage the church people and students that are a part of the 
church to take a stand and say no to drugs. That is the 
beginning of our week.
    During the week, we have programs in the schools. We will 
have coloring book contests with the little kids, which is the 
say no to drug theme. They will color that, and we give the 
first-place winner a certain prize.
    Students make poster boards which they wear in the parade, 
which are different things, saying say no to drugs. We have 
them make banners which they carry in the parade. Also, at some 
of the schools I called on, they are still hanging around the 
schools, where they are very proud of what their children are 
doing. They honored them by keeping them there.
    We also had them decorate the bicycles that they ride in 
the parade and their wagons. Some are now taking last year's T-
shirts and putting them on the dogs and bringing their dogs 
with their say no to drug T-shirts on, which is fine as long as 
they are not the new ones. I have a hard enough time getting 
money to buy the shirts.
    We operate with about a $10,000 budget. I spend between 
$7,000 and $8,000 for T-shirts, so we don't have a lot of other 
money.
    The police department and the county sheriff will buy the 
ribbons for us out of their drug-bust money. They figure this 
is an educational thing. So 1 year, the police chief buys the 
ribbons. It will be about $300. Then that year, the sheriff 
buys the buttons; and they cost about $800. So we flip-flop 
them back and forth each year. That is how we cover the 
expense.
    After we have had this put together of the school program, 
we put together the parade. To this date, which is the 10th 
year, we had 24,471 students sign up and march in our parades.
    The first year I was a little iffy as to what was going to 
happen because this had never happened before, and I had 1,878 
students sign up and march in the parade. So it is a thrilling 
thing to see that these students are doing this.
    In the past years, the thrilling thing for me is to see 
more and more parents marching with their students. So I am 
sure they are feeling more and more support from their 
families.
    The picture I sent to you might not have been a very good 
picture, but the police chief is there. Our sheriff is there. 
The lieutenant at the head of the parade was an Olympic 
athlete. We tried to have a quality thing for the kids--the 
athlete, we had the Bears, we had the Green Bay Packers.
    We ended at the school in the band shell and they signed 
autographs on the back of the T-shirts. The first year, they 
signed in nonwaterproof ink; and my wife washed mine off.
    We have a lot of race car drivers. They pull the cars down 
there and set up in the same area that they sign autographs, 
and they let the kids look at the cars.
    We have had track meets for the kids to participate in 
afterwards at the high school track.
    We had different drug programs from our Sinasippi Center. 
They bring in a program or a hospital brings in a booth where 
they hand out literature and try to help our kids.
    We are just a very active and excited group. Yet I am also 
on the task force at Dixon High School, and we just went 
through a survey profile of student life attitudes and 
behavior. It was performed by the Research Institute of 
Minneapolis, MN. We find that 23 percent of our 12th graders 
report binge drinking three or more times in the last 2 weeks, 
and that was from 1996.
    We also had, which is a disturbing thing for me, 44 percent 
of our seniors in the last 12 months had driven a car after 
drinking once or twice. We had several statistics on drugs, 
marijuana; 52 percent of the seniors had tried marijuana in 
their lifetime; 6 percent had tried cocaine; 22 percent tried 
amphetamines; LSD, 10 percent; 6 percent have tried heroin.
    So with all of our programs, with all of our efforts to try 
to bring a positive attitude, this is sort of a downer, but it 
is not enough to stop us from continuing on. We don't have much 
participation from the students when they get to high school, 
and I think that is because of a lot of peer pressure. It looks 
maybe sort of silly for them, they feel, walking down the 
street in a parade. We have had some, but very few.
    Thank you.
    Mr. Hastert. Thank you very much.
    I was interested, especially, in high school kids. One 
statistic is, if you get a kid through age 15 without using 
drugs and not smoking, there is a good chance he is going to 
make it to 21 and then through the rest of his life. I think it 
is a very important issue.
    We come back to dealing specifically with a couple of 
questions, but I would like to start with Mr. Haines.
    I, too, sometimes would like to be able to change the 
headlines. Just people read the story and not the headlines. It 
works out better. I haven't found a way to do that.
    But, anyway, in your essence of actually being able to give 
a different perspective, psychologically, if you will, have 
you--you know, you use statistics, but you are around campus 
day in and day out. Is the attitude changing?
    Mr. Haines. I think definitely we have seen an attitude 
change over the years.
    There was just a current front page story in our summer 
edition of the campus paper which talked about marijuana use on 
the college campus. I believe Chief Pickens said what we may 
have is more enforcement with the same level of use. So that 
people perceive that there is more use going on, and that is 
another one of those perception things.
    I think some of that enforcement, at least from some 
anecdotal comment that I have heard from some of the residence 
hall staff, is that the student attitudes about marijuana are 
less accepting of marijuana use today, even among the student 
staff who may be resident assistants and so on. So things or 
behaviors relative to marijuana use that might have been 
overlooked or where somebody turned the other way or just 
slapped a wrist 10 years ago are now being written up and 
sanctioned.
    I don't think that should be bad news. It gives the 
community the perception there is more marijuana use when 
actually there isn't, and I think it is more accurately a 
reflection of less tolerance, and it could be good news. It is 
unfortunate that it often gets spun as bad news, as more 
evidence we have trouble. It actually should be seen for what 
it is, that there is more evidence that things are healthier 
than ever before on the college campuses.
    Mr. Hastert. Mr. Johnson, you talk about the unintended 
consequences and the unintended crime that happens. When you 
talk about the crime that kids when, because they are on 
drugs--part of that is burglary, purse snatching, taking money 
from their parents to get money to buy drugs.
    What we don't see, when we see that that incidence is up, 
is a pharmacological crime out there, that the crimes that kids 
do--and the adults as well, because they are under the 
influence, much like what you are talking about, the injury 
from alcohol, that they do--and one of the studies that just 
came out, that 80 percent of the domestic abuse cases are 
involved in some way with alcohol and drugs--I mean, it is a 
huge number that we spend a lot of money on.
    It is estimated we spend about $90 billion in this country 
every year--not just in buying drugs. That type of money, that 
goes through the system--but in apprehension and the cost of 
victims, the cost of crime, incarceration, those types of 
options are just huge. You just start to look at what a high 
school spends and universities spend and how we do that all 
across our society, it is a huge amount.
    So you said another thing that I want to see you repeat 
that and get your opinion on and then test it on some of the 
other folks here, that prosecution is important. You need to 
prosecute kids so they know where the line is. Tell us a little 
bit about that.
    Mr. Johnson. I think you heard from the first panel--I 
can't remember. One of the gentlemen speaking in the first 
panel said they come and test an area and find out their 
policies and procedures in an area. If they find out you get 
caught and if you get a slap on the wrist, you go on and do 
your business more, that is a good area to settle in. So you 
want to send a message out.
    I think one thing that is repeatedly clear is people who 
commit crimes have networks, and they understand more than 
people give them credit for as to where the markets are that 
they want to locate in. They are a business, and they look for 
markets that are more friendly to them, as with any business. 
So I think that the message that we want to send out as 
communities is your type of conduct is not tolerated.
    I think the other thing is, from a juvenile perspective, 
these individuals do want to know where the lines are drawn. 
They want consistency. They want--I think if they are honest 
and they tell you what they believe, they want to know what is 
acceptable behavior and what is not; and they want to know 
that, no matter who it is, if they violate these laws, it will 
be applied evenly to them.
    So I think we have to send the message out, especially from 
the prosecutor's office. Everybody wears a different hat, but I 
think from the prosecutor's office, they have to understand 
when they make it to our office they are going to treat it 
seriously. The punishment will be consistent, and it will be--
--
    I don't want to ignore the whole aspect of referring people 
to treatment as well. I think, too often, in the prosecutor's 
office, you get locked into this idea you are going to get a 
conviction and think you accomplished something. It is 
certainly a major part of what the prosecutor's role is; but I 
think we have to get the people to the help they need, 
especially the users, to get them to the help they need so they 
don't repeatedly come back into our system.
    Mr. Hastert. Mr. Nakonechny--I am going to get that name 
right. I mean, I don't want to put you on the spot, but as a 
teacher and a coach, sometimes you think, gee, I can help this 
kid, rather than send them into the system. What do you see 
works? Does tough prosecution work? If kids know they are going 
to get caught, they are going to go through the court system, 
does that help? Or how do you see that? You are dealing with 
the kids every day.
    Mr. Nakonechny. Well, I think it does help. I really do.
    The tidying up of our own school procedures in terms of 
discipline certainly has sent out a message, but it is in 
combination with everything said here. It is in combination 
with the entire community.
    I don't think Mr. Johnson can do it by himself or Mike can 
do it by himself. It is still the phrase about a village and 
raising a kid. I think we are at that point in time. It 
definitely has to be there.
    Just reflect on the DUI laws and what has happened 
statistically. We have a long way to go there, too; but I hear 
more and more people, especially in my age bracket, saying, 
wow, this is more serious business. You know, I am not doing 
this and I am not doing that. So there is a positive to it all. 
As long as we keep a positive to it in terms of rehabilitation.
    Mr. Hastert. Sheriff, as an officer of the court, do you 
see that as a policy?
    Mr. Randall. That is correct; and using the multifaceted 
programs of what is going on, how we deal with everybody's 
situation cannot be the same. You can be firm, but every 
situation is different, and you have to look at each one.
    Mr. Hastert. Let me go into a different aspect you brought 
out before. DeKalb County, Kane County and Kendall County are 
all in the same judicial circuit, so there should be some 
cooperation there.
    You know, a couple years ago, we had a meeting that brought 
together the sheriffs and the States attorneys and police 
chiefs and others; and out of that circumstance some of the 
folks, it was the first time they sat down and talked and found 
out they had common problems in cooperation. What is happening 
is there is more cooperation between different levels and the 
courts, the judges themselves, in this whole issue. You 
mentioned coordination.
    Mr. Randall. Absolutely, and that helped. I think those 
have to be on a continual basis. You just can't do it one time. 
Because people change, positions change, whatever; and all of 
that has to be on a continual basis to continue that positive 
networking of what is going on.
    You know, if someone has a good program up here and we are 
not aware of it in Kendall County, maybe we could steal that 
program, enhance it, and say, yes, we have the same issue.
    Mr. Hastert. Is that coordination happening?
    Mr. Randall. Probably not as good as it should, but it is 
happening. It just needs to be improved.
    I know--between all the meetings that we all attend and try 
to get information and all of the periodicals that come out, 
attempting to gain as much information as possible, when you 
think you have everything, somebody else will come up and--just 
like this. Oh, he really does have a good program. Why does it 
work there? You know, he is a very enlightened person; and they 
get it to go. You have to get a sparkplug in your area to do 
some of the things.
    Mr. Hastert. One of the things we didn't do, we didn't 
include the school community when we had the meeting, partly 
because there are some reasons--you want to keep some of the 
records tight and not expose your students to the stuff.
    Do you feel there should be more coordination between the 
courts and the schools and the judges and the police? Or is 
that happening?
    Mr. Nakonechny. I believe it is happening in DeKalb. Again, 
we could probably improve on some areas.
    But, when Mike Lauden was States attorney, we worked very, 
very closely through the DCP/SAFE. I just don't know Tim very 
well at this point in time; but the schools and DeKalb Police 
Department have worked very, very closely. A few years back, if 
I remember correctly, there used to be almost monthly meetings, 
for instance, with the police department and the school 
officials.
    Mr. Hastert. One of the things, you have talked about some 
obstacles and your discipline committees, and you have 
tightened down. Have you had any liability obstacles, people 
threatening to take you to court?
    Mr. Nakonechny. I really can't answer that question because 
I am not an administrator. I don't deal with discipline per se. 
But I would say, yes, there have been some problems; but I 
couldn't verify that in terms of specifics for you.
    Mr. Hastert. Finally, to finish off my question and go to 
the second round here--Mr. Miller, I was in Dixie yesterday at 
another parade, a nice affair you had there. But I visited a 
couple weeks ago, maybe a month ago now, while school was still 
in session, Reagan Junior High School; and I talked to all your 
eighth graders.
    There are about 250 eighth graders in the school, and we 
were talking about some of the things I do in Washington. We 
were talking about the drug issue and what we need to do and 
how we are trying to look at it from the Federal perspective.
    The kids were good, but one question I asked them is how 
many of their parents--have ever had their parents talk to them 
seriously about drugs. There were 250 kids; and if I remember, 
off the top of my head, there were about 43 kids that raised 
their hands. That is about 20 percent, 2 out of every 10 kids.
    You talk about getting parents involved. This is mainstream 
U.S.A., Ronald Reagan's hometown. How could we do a better job? 
Are we doing a better job getting parents involved, sitting 
down and talking to the kids?
    We talk about norms and expectations. If parents can't sit 
and talk to their kids and explain what they feel--we are 
getting into a pretty personal area here--we are not getting 
the job done. What is your view on that?
    Mr. Miller. As I mentioned before, we tried to have some 
parent programs; and they just were not interested. They would 
not come to be educated.
    As the young woman earlier indicated, if she had some ideas 
of the signs of drugs that she could have looked for in her 
children, maybe she would have spotted that earlier.
    We tried to come up with those type of programs for 
parents, but they just don't seem to want to get involved, to 
take that step of commitment that they have to take. We are 
going to continue to try to come up with programs to help them 
realize the need.
    I think the first program is probably that parade. Because, 
like I say, I have seen a lot more participation by the 
parents; and that is probably the first step. They are showing 
their kids that, hey, we are going to walk with you. We don't 
care if somebody on the stands sees we are walking with you, 
even though they might have been, you know, using drugs 
themselves or drinking excessively themselves.
    Maybe this is the first step they need to take there and 
then maybe they will be educable a little later. I don't know. 
I think that is a very important step we need to work with, but 
I don't have the real answers on how to do it.
    Mr. Hastert. Mr. Haines.
    Mr. Haines. I think that following along with the same sort 
of idea of positive or protective norms, where we can use our 
educational facilities, K through 12, as well as the university 
to connect those young people, even through home work 
assignments, with examples from their own family, from their 
own communities, of people who have been successful in their 
relationship with alcohol or other drugs.
    One of the homework assignments I had for my class was that 
during spring break or Thanksgiving break, which semester it 
happened to be in, is they had to go home and find examples of 
three responsible drinkers and they had to interview the 
drinkers and find out what were their techniques for 
maintaining a healthy relationship with alcohol.
    One of those people had to be related to them. One person 
had to be a friend of the family from the community. It was the 
intentional exercise to link them directly with healthy models 
from their own community and their own family of how to do the 
right behavior.
    I think we need to parade a lot more healthy, successful 
models in front of young people, notwithstanding the tragedies 
young people see when we have the recovering person come to 
class. The recovering person has a message which says, if you 
get messed up, you, too, can be cured. It isn't a message of 
how not to get messed up in the first place. We need a greater 
parade of people who come to show young people they can be 
successful, because there are a lot of others who are.
    Mr. Hastert. Sheriff, were you going to say something?
    Mr. Randall. Yes. You had a question between the liaisons 
of school and law enforcement; and the chief of police who was 
here was chairman of the committee working with the Illinois 
Chiefs of Police Association that developed a very good program 
that has been adopted Statewide for all law enforcement 
agencies working with the schools, not just on communication 
but cooperation.
    Mr. Hastert. Mr. Nakonechny, what about parent involvement? 
You are dealing with kids and parents; and you still send out 
report cards, get some reaction back. Parents basically don't 
want to get involved or are they getting more involved or they 
only get involved when there is a problem?
    Mr. Nakonechny. I think the latter is right, when it 
becomes a problem. The tendency you see in our schools--but it 
is across the State.
    Every winter we go to Springfield for the Statewide drug 
and alcohol seminar with the State officials. Everybody I 
talked with, Charleston to Macomb to Carbondale, when you ask 
the question how difficult is it to get parents into schools, 
they say that is the $64,000 gem; and if we can solve that 
here, you are going to the White House. I mean, it is a tough 
one. It's a very, very difficult one.
    From kindergarten, beginning--their early primary years, 
parents do get involved; but as you go up the grade scale it 
drops off, to the point, in high school, it gets very, very 
difficult to get people in there, very difficult.
    Mr. Manzullo. You know, nobody wants to say it, but I will. 
The reason a lot of parents don't get involved with regard to 
drugs is that they lived through drugs in the schools, and they 
survived it. They figure if they lived through and survived it, 
their kids will do the same thing.
    It's true. If you ask parents about it, they say, well, we 
lived through it. Many experimented with it. They will tell you 
to your face, I smoked a little marijuana; and it did nothing 
harmful for me. If my kid does it, there will be nothing 
harmful for him.
    So there has to be two generations that need to be 
reached--not only the generation at risk but the parents.
    If you have the town meeting on the increase in cable 
rates, believe me, that place would be packed out. It is really 
an indication of the fact that so many parents are just 
saying--and I am not saying this in a critical manner--is that 
as they went through high school--you know, as their parents 
went through high school with the presence of alcohol and 
survived that, so they went through high school with the 
presence of drugs and survived that, and it is just something 
else that has to be a challenge to their children, something 
else they have to live with.
    But that is why I wrote down the first thing Mr. Nakonechny 
said, that it is hard to get parents involved and I would 
submit this: If one thing comes out of this subcommittee 
hearing today, if parents don't get involved, we might as well 
all go home.
    We are U.S. Congressmen. You are involved with prevention, 
enforcement, education, all types of fields, volunteer work. 
You might as well go home too. Because it is simply a matter of 
pointing out to the parents the absolute necessity----
    What amazes me about what you have done is you saw a corner 
that wasn't filled and that is people take the public stand 
against something that stinks in society, to go out there and 
to wear the T-shirts and get the parents involved in doing the 
same thing.
    Let me just make a couple of observations and suggestions. 
Schools send literature home on a periodic basis. Public 
libraries send out literature on a periodic basis. There 
probably isn't an organization, not a proper organization, that 
doesn't do that.
    If there is a list of 10 things for which parents should 
look to see as to whether or not their kids are on drugs, if 
you put one of those--just one sign--dilated eyes, for example, 
nervousness, jitteriness, sleeping too long, inability to 
concentrate, any of those things are a sign that you may have a 
child that is at risk.
    In working with so many parents--when I was in the private 
sector, I worked with hundreds of parents of high school kids 
who were caught up in the juvenile system. The same thing came 
back over and over and over again.
    If we had only known, if somebody just told us--but I think 
if you put on a program at your school and say we are going to 
run a program on how parents can recognize whether or not their 
kids are involved in drugs, you might get 20 parents to show 
up, whereas 10 or 15 years ago, you would have 700 that would 
fill the assembly up.
    So I think the education process--the net has to be cast in 
much larger terms. At least I say this not only as a 
Congressman--from a person who worked in law enforcement for 
over 22 years and now from a unique and very distinct and 
personal responsibility, being a parent to three children, 
knowing all three will be teenagers at one time--and personally 
that absolutely terrifies me. But recognizing the fact that 
when my kids are past their teens, I think that is probably 50 
percent of the battle.
    You wanted to say something, John?
    Mr. Nakonechny. I agree with you. I have a son who is 25, 
and he teaches in the Glen Park schools, but at one point in 
time, we were going through 15 gallons of milk a week, my wife 
and I--not my wife and I, but our four children. Even on a 
personal level, my wife smoked two and a half packs a day for 
years, and she was industrial strength and we had to take her 
to a shrink twice and finally it caught on and she no longer 
smokes.
    Our third son, I coached him in baseball--I coached 
baseball for 17 years. I come to find out--he is going to turn 
21 in September--he is smoking Marlboros. I mean, figure it 
out, it is difficult; and I think we are pretty responsible 
parents. But the kid who I least expected to smoke is smoking 
cigarettes now.
    Mr. Manzullo. Mr. Haines, this is pretty unique stuff. Not 
everybody agrees with you, especially when you say if you are 
trying traditional drug prevention efforts--for example, policy 
changes, scare tactics, refusal skills, et cetera. In the face 
of your detractors, you have something that is working here. We 
have a 16th Congressional District antidrug coalition where we 
bring in people from throughout the entire community. In fact, 
we have media people come in that are part of our group, and 
they are in the process of planning PSAs, and I would like to 
call upon your services, if you would be so kind, to help us in 
our PSAs, in order to gear the message.
    But let me ask you a question. Do you remember the ad with 
the fried egg.
    Mr. Haines. This is your brain, this is your brain on 
drugs.
    Mr. Manzullo. Right. That does some good. You are not 
saying those totally don't do good.
    Mr. Haines. They sell T-shirts in almost every university 
bookstore around the country I have been in, and it says ``This 
is your brain,'' ``This is your brain on beer,'' that has the 
hard boiled egg in the bottom of a mug; it becomes the national 
collegiate joke.
    The scare tactics have the impact of attracting attention, 
all the communications media say scare tactics attract 
attention, even negative media campaigns attract attention; but 
one thing they do is fewer people vote who are exposed to 
negative media. Fewer people who are exposed to negative 
substance media are affected by it, rather than being thrilled 
by it, it is what I call the ``Jaws factor.'' If negative media 
worked for young people, people who saw ``Jaws'' would not go 
swim in the water where it was filmed. Just the opposite 
happened, they had to close beaches where ``Jaws'' was filmed 
because all the young people flocked to the beaches to be able 
to say I swam where ``Jaws'' was filmed. So scare tactics 
sometimes have the unintentional impact of exciting the 
population to the very behavior.
    Some years ago there was the documentary called ``Scared 
Straight,'' which had death row inmates talking to the camera; 
it was hailed as a prevention film to deter juvenile 
delinquency, but when it was actually studied, it found the 
straight kids were scared straighter by it, the majority of 
kids in the mainstream saw it as entertainment, and the few 
kids who were bent or twisted saw the people as role models.
    Part of what I am talking about here is, much in the field 
of substance abuse prevention goes untested, is not accountable 
for whether or not it actually makes any difference, and I am 
heartened by that one facet of the tobacco agreement, as I 
understand it, which requires a cigarette manufacturer to show 
actual percentages of decrease in the number of young people 
who smoke tobacco in the future or they face increasing 
penalties.
    In our field, substance abuse prevention, most of the 
people who receive State or Federal money don't have to show 
any effect whatsoever on the change of substance-taking 
behavior, and the grant moneys come again the next year.
    Mr. Manzullo. There are a series of ads on television now 
showing videotapes of children who have been killed by drunk 
drivers. Your observation?
    Mr. Haines. I think it will once again reinforce the 
message to those who don't drive drunk about how serious and 
dangerous it is. I think we have another phenomenon with drunk 
drivers, which is a tough nut to crack, is that a large 
majority of the people are addicted, or are people who may not 
intend to drive drunk and do anyhow because of their impairment 
in judgment. They can sit stone sober, see that and say, drunk 
driving is a horrible thing.
    Mr. Manzullo. They don't realize they are a threat.
    Mr. Haines. Right, and get entirely intoxicated. So to some 
extent we need to be working harder to empower community 
members at intervening. The sober people around drunk drivers 
who feel intimidated or impotent about being able to intervene, 
to intervene before a person gets in the car, because I don't 
even think enforcement efforts reach addicted populations for 
drunk driving prevention because they know they don't want to 
get a ticket or pay $7,000 in legal fees, but they do it 
anyhow, and they do it over and over again because the 
recidivism rate for DUI is high.
    Mr. Manzullo. Your friend Noel Mesler, who works in the 
county, you get out there in the squad cars and continue to 
arrest them, and the incidence of drunk driving has gone down 
nationwide. That is the good news. The bad news is, it is 
increasing among the young people.
    But, Bob, you take programs like yours, there is no way to 
measure the impact or effectiveness of such a program.
    Mr. Miller. No, and that is the question I get, in 10 years 
what have you accomplished? I don't have an answer; we don't 
have any statistics.
    Mr. Manzullo. You don't have to, because all you can say--
there have been a lot of congressional hearings, you say you 
spend all this money on beer, but things are getting worse. 
Well, just a second, it could be more now if you didn't have a 
D.A.R.E., and you can never evaluate the cost of prevention.
    Mr. Miller. Right, but I feel--and I said there were over 
24,000 students. There has been one that I know of that has 
come to my house and was almost an alcoholic and was on 
cocaine. And he said, I need help; he knew I was involved with 
Say No to Drugs. I counseled him through my church program, and 
he is now a straight young man. So I have said and I continue 
to say, if only 1 out of the 24,000 was saved, it was worth it 
for my time for the 10 years.
    Mr. Manzullo. I just want to commend all of you who have 
bits and pieces to work with on this overall problem. Nobody 
here has the total answer. You struggle within the depth of 
your own soul to come up with the best method possible to 
combat this, and you have an area there and it works.
    And, Sheriff, with all deference, I share with you the 
tremendous frustration of the agencies and organizations and 
task forces and meetings and groups and so many people with 
different problems, and people are ``meeting-ed out'' because 
they are just so desperately trying to figure out which way to 
do this.
    We don't have an answer in Congress, because we know 
something about bureaucrats in Washington, but I want to thank 
you and commend you and give you our best wishes for the 
tremendous work you have done.
    Mr. Haines. I was just going to comment on measuring 
prevention. I think we could borrow from some of our 
neighboring fields. Certainly we have some information to show 
how the incidence of smallpox has been reduced within a 
population after an intervention. We know that seat belt usage 
has gone up 400 percent with a legislative prevention 
requirement to wear seat belts and enforcement of that.
    We also know with underage drinking among college students, 
their behavior hasn't changed at all with legislation; the same 
number drink today, who are 19 and in college, who drank 10 or 
15 years ago before that legislation was passed.
    So we do know there are outcome measures that can in fact 
determine whether or not there are more or fewer people in 
emergency rooms with drug overdoses or fewer people who are 
sanctioned within the school district or wherever the markers 
might be. There would be no farmer in this community who would 
buy a pesticide if it didn't show it was effective in killing 
insects, for reducing the populations in the fields, and I 
think we can apply that to our prevention efforts as well.
    Mr. Hastert. Thanks, Don. I want to make a statement and 
then a question.
    You mentioned conflicted parents, parents who were parents 
of the 1960's or 1970's, that invited in one thing or another 
when they were students; let me say that things have changed. 
Drugs are different today, and most parents, I know one time 
heroin was 4 to 10 percent pure in the 1970's, and today it is 
90 percent pure; and certainly we have a lot more kids in the 
hospital rooms who OD because of it.
    And we have this Smashing Pumpkins band, I think is what 
they call it, and their people OD, and I don't know how that 
affects kids because they have seen the results of that type of 
thing. Twenty years ago, crack didn't exist. Methamphetamines 
were rare and certainly less potent, and marijuana today is 
sometimes 25 times more potent than it was in the 1960's. And 
then, if you do what the gentlemen talked about before, if you 
sprinkle it with stuff, you don't know what you have; it's a 
time bomb.
    So times are different, too, and I hope parents get 
educated with what they thought was drug use, certainly can be 
much more magnified today.
    A couple of other things. One of the things that the 
President has asked us to do is appropriate $175 million to aid 
through the Drug Czar's office to do PR, because they said we 
can't get free advertising anymore and we need to get 
information out in front of kids; and I don't know if that is 
going to be on MTV or where they want to put that. But if you 
were advising a type of PR, if that $175 million does get 
appropriated through the process, what kind of PR ought to be 
out there? How do you reach kids? How do you get their 
attention?
    Mr. Haines. One point would be, not to deny the problems 
exist, but once the problem has been recognized, to move away 
from inflating the problem and, instead, tend to the solution. 
So solution-based public service announcements, public service 
announcements that don't tell us what not to do but that tell 
us what to do, that provide us with the skills, the power, 
demonstrated abilities that could be modeled in PSAs or 
whatever, the attitudes and norms that would protect us from 
harm. These are the things that people who have been offered 
alcohol or drugs or what have you have been able to do more 
successfully, and have the models to describe how they have 
succeeded. We don't need any more parades of people, who had 
difficulties, tell how they have been harmed because that 
doesn't empower anybody to do anything, other than first become 
harmed in order to become healed; and we don't want to give 
that person that message.
    I call that the Dwight Gooden message of recovery. First 
you have to be an athlete that pitches high on coke, and then 
you become treated and give the wrong message because it says, 
one, we can use drugs with impunity because there is treatment.
    That is the message you hear often from young people who 
smoke, well, everybody gives it up after they are 26 or 30 
years old, so I can smoke now because it isn't going to be a 
problem. We want to avoid that message and give people the 
message that models the behavior we are trying to reduce over 
and over again.
    Mr. Nakonechny. I couldn't say it better than Mike. I agree 
with that. I don't have my own thoughts on that per se. I am 
not so sure what the intent of this PR blitz--what does he have 
in mind?
    Mr. Hastert. I'm not sure, it is the Drug Czar, ONDCP.
    Mr. Nakonechny. If it is going to be more automobile 
crashes, saying, Don't drink and drive, and there are bodies 
all over, I don't go along with that at all. My opinion is, you 
take a role model athlete not on anything and promote the 
positive. That is coming from professional sports, and I think 
they are pretty good when I see them.
    Mr. Hastert. If we get nothing more out of this hearing 
today, maybe the warning could be worth something.
    I think we have gotten a lot out of this hearing. If 
anybody else has anything else to say--I think we will go ahead 
and dismiss the panel, and I want to say thank you very much 
for your time and, more than that, for what you do; it makes a 
difference.
    I think if you try to be quantitative in this and say, 
everybody does this work and we still have problems, I think 
the problems that would face us today if we didn't have people 
out there trying to help them solve them would be 
inapproachable. And we thank you for what you do, Mr. Miller, 
especially you, for your volunteer work. You can't see them and 
you can't measure them, but there are great effects.
    Mr. Miller. I have this pumpkin your organization brought a 
few weeks ago when they brought the float with the donkey on 
it. Was it a donkey or an elephant.
    Mr. Hastert. It was an elephant, but we are not talking 
about that today.
    I just want to finish with one thing. I had a long talk 
recently with a young man who grew up in Sycamore, IL, and who 
today is a coach at one of the major universities in this 
country that happens to be in Illinois. He is a head coach, and 
he talked about his life in Sycamore as opposed to what the 
life is today. He is younger than I am; he is not very old--and 
you appreciate that, right--and he said, you know, he grew up 
on a farm and he was so tickled to have organized athletics 
when he got in junior high and high school because they got up 
at 6 a.m., and at 6 p.m. they milked cows, and that is what 
they did; and they bailed hay and did all these things. But if 
he was out for a sport, he had to practice a little early, but 
didn't have to be home right at 3:30 and he could do these 
things.
    This was an incentive, and he achieved and has done great 
things. But sometimes--you know, most kids don't have that 
incentive; and as you change from a really rural community to a 
community more suburban and more sophisticated, I know my kid's 
life has changed a lot different from what my life was. I grew 
up in a little town called Oswego, IL, which was all farms. 
Today you can't find a farm.
    So we have to adjust and find those new challenges, and the 
gentlemen who were here before talked about athletics and 
keeping kids busy, and basically busy kids don't get in 
trouble. Kids that don't have things to do, or a life 
unstructured--parents aren't there and they have to kill time.
    So I think we have learned a lot. I am not sure that there 
is a fix for every problem we talk about. Ironically, I think 
most fixes come in our own backyard, at home, what we do in our 
communities, what we do together to solve the problems are 
probably the most important thing. So I appreciate your 
efforts; I appreciate everybody who is here today.
    What are we going to do with this information? We are not 
here just to sit and listen today; I hope we can take the ideas 
back. I hope that the ideas that we try to fashion into 
legislation take into account what we hear today and try to 
emphasize in that way. So we appreciate very much your input 
into this, and we have also had a request to have a public 
statement, so I am going to dismiss this panel and if the 
gentleman would like to make a public statement, I will give 
you 5 minutes, give your name and residence, and we will be 
happy to listen to what you have to say.
    Mr. Bennett. My name is Jack Bennett. I live in DeKalb. For 
purposes of identification only, I am a retired professor of 
biology at Northern and was also, for 20 years, a Republican 
precinct committeeman in the community.
    I am very pleased that you are having this hearing, and I 
have been very pleased to hear almost all of the presentations. 
I feel better about the community right now than I did before I 
heard them. I think that is good.
    I appreciate the opportunity to present my views on the war 
on drugs, as it has been, and is being conducted. I believe I 
share many of the goals of those who have been involved in the 
war in the past, especially such goals as educating our 
children on the consequences of the use of many of the so-
called ``recreational drugs,'' and I would include alcohol and 
tobacco, both substances that I have used in the past, of 
course. I have been able to cure myself of tobacco for 30 years 
or so.
    However, I wish to be clear that the shared goals does not 
imply that I or many in our community support any aspect of the 
war as now conducted, other than the educational efforts. I am 
reasonably certain that a large number of consumers and sellers 
of the so-called ``recreational drugs'' in the community don't 
share in the desire to see the drug war continue. In addition, 
many nonusers in the community do not share in the war in the 
sense, as used by the media.
    For example, I have repeatedly argued that the battle is 
futile, is destructive to the community, it cannot be won by 
any of the current efforts, other than, as I mentioned, 
education. The war has had the effect of corrupting the 
officials, police and the military of almost all of the 
countries from Mexico through Peru, and of Southeast Asia. And 
our own police and other agencies have not been completely 
immune, as the media has so eloquently shown.
    The war has led our own government to massive interference 
in the internal affairs of all the nations involved in illegal 
production, trade and transport. We have been very bad 
neighbors from that point of view in the way we have intervened 
in other countries. If other countries tried to intervene in 
the United States in the same way, we would be fighting wars.
    The war has resulted in Federal laws that have damaged many 
of our individual liberties, including freedom from 
unreasonable search and seizures. Many judged innocent have 
been unable to reclaim their property. The DEA officials have 
requested the right to shoot down private aircraft if unable to 
establish contact. Fortunately, somebody had sense enough to 
stop that.
    Repeatedly, innocent people have been damaged, and when 
found completely uninvolved, usually cannot even get an 
apology, especially from the DEA or FBI.
    The war has filled our prisons with otherwise productive 
citizens who were guilty of the same stupidity as tobacco and 
alcohol users, but with a different drug. The war regularly 
converts foolish youngsters into criminals, rather than 
productive citizens. The war has failed consistently for at 
least 40 years, yet we show no sign of having learned any 
lessons from this continuous failure.
    As quoted in the media, even the most successful drug war 
agents admit that their arrests barely dimmed the street 
supply. New suppliers show up immediately. The only effect is 
to overfill the overcrowded prisons and cost the taxpayers even 
more money.
    As these speakers have told you earlier today, nobody has a 
problem getting drugs if they want it. After World War I, we 
tried a great experiment of making alcohol a drug, illegal. In 
about 10 years, it became apparent that prohibition had many 
deleterious effects, in addition to the fact that it didn't 
work.
    The bootleggers, the 1920's name for drug pushers, made 
sure that no one who could afford their alcohol would go 
without. The profits they made built the organized crime system 
in this country and corrupted many of the enforcement agencies, 
the same kind of corruption that we see today all over the 
world in the drug war.
    When our citizens came to their senses in the early 1930's 
and repealed prohibition, several good things happened. One, 
deaths from contaminated alcohol stopped, because you could buy 
good stuff in the liquor store, and it was properly labeled. 
Two, businessmen, often ex-bootleggers, made legal profits and 
paid taxes on them, instead of being in prison. No more 
otherwise productive citizens were imprisoned at taxpayers' 
expense for selling or consuming alcohol.
    The sad fact is that, today, we have not profited from this 
experiment in government control of behavior and morality. 
Taxes are not collected on drug sales, organized crime, gangs, 
are enriched, and many die from overdoses because they have no 
way of knowing the concentrations or if the drugs are 
contaminated. Our citizens are mugged, robbed and murdered to 
pay the bill.
    When we have the sense to legalize the production and sale 
of all drugs, including alcohol and tobacco, tax them, and 
require suitable purity and labeling, we can treat them like 
alcohol and tobacco. We can then work on educating our children 
about the futility of destroying their nervous systems. No more 
prisons filled with drug users and pushers; children will find 
reasons to try them, if they can find them, but will lack the 
lure of illegality. The money currently wasted on the DEA and 
similar agencies, who have not stopped or reduced the street 
supply, can be used for education and treatment.
    I am sure there are other benefits, including safer 
streets, that will follow.
    Clearly, the battle of drugs is not shared in its present 
form by the entire community. It is quite probable that most 
who share my view are too intimidated by the mindless 
propaganda to publicly speak out. I am sad that the Congress 
perpetuates the head-in-the-sand syndrome that has kept us from 
effectively dealing with this problem.
    Thank you.
    Mr. Hastert. I appreciate the gentleman and his comments, 
and let me give you very briefly--and I don't think we need to 
set a debate up here. I think you and I disagree in some of the 
aspects.
    Let me just give you, very briefly, an experience I had. I 
went to Switzerland to give a speech. I was asked by the ONDCP 
to participate. And Zurich and all the different provinces of 
Switzerland, which is a very small country--I visited there 
about 30 years ago; it was a beautiful, pristine country, a 
pretty conservative country--that country today has basically 
legalized heroin, and they have free heroin houses, people can 
get up to 9 hits a day.
    They also--for those people who go on heroin, have a 
pension system. If you declare yourself as a heroin addict, 
they give you a pension of 2,500 Swiss francs a year, that is 
about $1,300. If you are married, she will get another 2,500 
francs; and if you have a child, you can claim another 350 
francs, if you have a dog, you can get 500 francs. So this is 
how the Swiss approach this problem.
    What has happened is, heroin addicts have not decreased; 
there is still an illegal supply because they can't get heroin 
that is pure enough. People who had used heroin at one age--now 
has crept down to lower ages of use, and they are still giving 
away 15,000 needles a day in Needle Park in Zurich, which was 
once a beautiful place, and today it has turned that town into 
something that you might see in some not very desirable areas 
in Chicago, Boston, New York or other places.
    So, firsthand, my experience is different from yours, but I 
have seen the legalization side, and not very good results, and 
I think that is where maybe you and I have a difference of 
opinion.
    I appreciate your being here, and I think certainly the 
statistics and ideas that you have are sound. They come from 
reason and thought. I think we disagree, and I thank you for 
being here.
    Ms. Meyer. Representative Hastert, will others in the 
community have a chance to make a comment and ask questions? I 
called your office and asked about that, and they said there 
would be an opportunity.
    Mr. Hastert. There will be an opportunity. You can submit 
written questions.
    Ms. Meyer. I was told you would stay as long as we had 
questions and comments.
    Mr. Hastert. I am sorry, if you have a question, I will try 
and answer it. Is it on the issue of drugs.
    Ms. Meyer. Yes.
    Mr. Hastert. Yes.
    Ms. Meyer. There are several things that I believe very 
strongly that you as a Congressman can do to help us in our 
community.
    You talked a lot today about the positive approach to 
youngsters, and prevention and rehabilitation are more 
important than prisons; and I understand there was a bill 
recently passed in Congress, which you supported, which would 
allow--would call for the imprisonment of children down to age 
14. And I understand that our law enforcement officials all 
realize that this is a disaster, and that adult prisons become 
crime schools, if not death sentences, for our youngsters, so I 
would hope you would rethink that.
    Also, there is a bill circulating in Congress, which I hope 
you will not join in with, which is denying--prohibiting 
affirmative action at any level, where there are any Federal 
funds involved. This would involve our university, and we have 
all indicated that youngsters need to have a goal in life, and 
the light at the end of the tunnel needs to be open for 
children of minority races, so I hope you will not join in with 
that bill.
    Mr. Hastert. Your name?
    Ms. Meyer. I am Cecilia Meyer, and I am a coordinator for 
DeKalb Interface Network for Peace and Justice, and for 21 
years I was a social worker in the DeKalb school system so I 
have been concerned about youngsters for a long time.
    Mr. Hastert. Thank you very much.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
